<html>
<title> - CRIMES AGAINST HUMANITY: WHEN WILL INDONESIA'S MILITARY BE HELD ACCOUNTABLE FOR DELIBERATE AND SYSTEMATIC ABUSES IN WEST PAPUA?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   CRIMES AGAINST HUMANITY: WHEN WILL 
                INDONESIA'S MILITARY BE HELD ACCOUNTABLE 
                FOR DELIBERATE AND SYSTEMATIC ABUSES IN 
                              WEST PAPUA? 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2010

                               __________

                           Serial No. 111-132

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-430 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH, Florida          CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Joseph Y. Yun, Deputy Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, U.S. Department of State............    14
Mr. Robert Scher, Deputy Assistant Secretary of Defense for South 
  and Southeast Asia, Asian and Pacific Security Affairs, U.S. 
  Department of Defense..........................................    21
Pieter Drooglever, Ph.D., Professor Emeritus, Institute of 
  Netherlands History............................................    39
Mr. Octovianus Mote, Founder, West Papua Action Network, 
  President, Papua Resource Center...............................    45
Mr. Henkie Rumbewas, International Advocate, Australia West Papua 
  Association (AWPA).............................................    52
Mr. Nicholas Simeone Messet, West Papua..........................    58
Mr. Salamon Maurits Yumame, Head of FORDEM (The Democratic Forum)    65
S. Eben Kirksey, Ph.D., Visiting Assistant Professor, The 
  Graduate Center, The City University of New York...............    73
Sophie Richardson, Ph.D., Asia Advocacy Director, Human Rights 
  Watch..........................................................    80

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     6
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    12
Mr. Joseph Y. Yun: Prepared statement............................    17
Mr. Robert Scher: Prepared statement.............................    24
Pieter Drooglever, Ph.D.: Prepared statement.....................    42
Mr. Octovianus Mote: Prepared statement..........................    47
Mr. Henkie Rumbewas: Prepared statement..........................    55
Mr. Nicholas Simeone Messet: Prepared statement..................    61
Mr. Salamon Maurits Yumame: Prepared statement...................    68
S. Eben Kirksey, Ph.D.: Prepared statement.......................    75
Sophie Richardson, Ph.D.: Prepared statement.....................    82

                                APPENDIX

Hearing notice...................................................   114
Hearing minutes..................................................   116
The Honorable Eni F.H. Faleomavaega: Material submitted for the 
  record.........................................................   117


    CRIMES AGAINST HUMANITY: WHEN WILL INDONESIA'S MILITARY BE HELD 
    ACCOUNTABLE FOR DELIBERATE AND SYSTEMATIC ABUSES IN WEST PAPUA?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:06 p.m. in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The subcommittee hearing will come to 
order. This is the Foreign Affairs Subcommittee on Asia, the 
Pacific and the Global Environment. And the topic for 
discussion this afternoon with our witnesses is ``Crimes 
Against Humanity: When Will Indonesia's Military Be Held 
Accountable for Deliberate and Systematic Abuses in West 
Papua?''
    I am going to begin the hearing by making my opening 
statement, and I will then defer to my colleagues who have also 
joined me this afternoon, my good friend, Dr. Diane Watson, 
former ambassador to the FSM and a Member from the State of 
California. Also, my dear colleague, Congressman Inglis, has 
joined us at this hearing.
    After giving and presenting our opening statements, then we 
will then have our friends from the administration testify 
before us. So I will begin now with my opening statement.
    My good friend and colleague, the ranking member of the 
subcommittee is not here with us, but that is fully 
understandable. There has been so much on our schedules. And I 
want to note for the record that my dear friend and colleague, 
Congressman Don Payne, unfortunately, is still on travel. But 
he does definitely want to send his personal regards and to 
submit his statement as part of the record of this hearing.
    To my knowledge, today's hearing is historic. This hearing 
is the first hearing ever held in the U.S. Congress that gives 
voice to the people of West Papua. Since 1969, the people of 
West Papua have been deliberately and systematically subjected 
to slow motion genocide, in my humble opinion, by Indonesian 
military forces. And yet Indonesia declares that the issue is 
an internal matter, while the U.S. Department of State 
recognizes and respects the territorial integrity of Indonesia. 
The truth is, this is no issue of territorial integrity or an 
internal matter. The record is clear on this point.
    West Papua was a former Dutch colony for years, just as 
East Timor was a former Portuguese colony, just as Indonesia 
was a former colony of the Netherlands. Because of its status 
as a former colony, East Timor achieved its independence from 
Indonesia in 2002 through a referendum sanctioned by the United 
Nations despite Indonesia's serious objections over East 
Timor's right of self-determination.
    In contrast, in 1962, the United States pressured the Dutch 
to turn over control of West Papua to the United Nations. Under 
the U.S.-brokered deal, then known as Ambassador Ellsworth 
Bunker's proposal, Indonesia was to make arrangements with the 
assistance and participation of the United Nations to give 
Papuans an opportunity to determine whether they wished to 
become part of Indonesia or not.
    In what became known as the Act of No Choice carried out in 
1969, 1,025 West Papuan elders, under heavy military 
surveillance, were selected to vote on behalf of some 800,000 
West Papuans regarding the territory's political status. In 
spite of serious violations of the U.N. charter and no broad-
based referendum, West Papua was forced to become a part of 
Indonesia at the barrel of a gun.
    According to the Congressional Research Service, and I 
quote,

        ``Declassified documents released in July 2004 indicate 
        that the United States supported Indonesia's takeover 
        of Papua in the lead up to the 1969 Act of Free Choice, 
        even though it was understood that such a move was 
        likely unpopular with the Papuans. The documents 
        reportedly indicate that the United States estimated 
        that between 85 and 90 percent of Papuans were opposed 
        to Indonesian rule and that, as a result, the 
        Indonesians were incapable of winning an open 
        referendum at the time of Papua's transition from Dutch 
        colonial rule. Such steps were evidently considered 
        necessary to maintain the support of Suharto's 
        Indonesia during the height of the Cold War.''

    Bluntly put, in exchange for Suharto's anti-Communist 
stance, the United States expended the hopes and dreams and the 
lives of some 100,000 West Papuans who consequently died as a 
result of Indonesian military rule. Although some challenge 
this estimate, it is an indisputable fact that Indonesia has 
deliberately and systematically committed crimes against 
humanity and has yet to be held accountable.
    While I have expressed my concern that there is strong 
indication that the Indonesian Government has committed 
genocide against the West Papuans, I am disappointed that the 
U.S. Department of State requested that I omit the word 
``genocide'' in the initial title I put forward for this 
hearing. The State Department requested a change in title based 
on the assertion that the word genocide is a legal term.
    Article 2 of the 1948 United Nations Convention on the 
Prevention and Punishment of Crimes of Genocide defines 
genocide as, and I quote,

        ``any of the following acts committed with intent to 
        destroy, in whole or in part, a national, ethnical, 
        racial or religious group; killing members of the 
        group; causing serious bodily or mental harm to members 
        of the group; deliberately inflicting on the group 
        conditions of life calculated to bring about its 
        physical destruction in whole or in part; imposing 
        measures intended to prevent births within the groups; 
        forcibly transferring children of the group to another 
        group.''

    This definition of genocide under international law 
accurately describes the crimes against humanity perpetrated by 
Indonesia's military, whether the U.S. State Department agrees 
or not. But given U.S. complicity, it is little wonder that 
every administration wishes to distance itself from this 
ugliness.
    As Joseph Conrad wrote in his book, The Heart of Darkness, 
and I quote,

        ``The conquest of the earth, which mostly means the 
        taking away from those who have a different complexion 
        or slightly flatter noses than ourselves is not a 
        pretty thing when you look into it too much.''

    When you look into it too much, nothing about Indonesia's 
ruthless brutality or U.S. complicity is a pretty thing. Three 
years ago, I led a congressional delegation to Indonesia under 
personal promise from President SBY and Vice President Kalla 
that I would be granted 5 days to visit Biak, Manokwari, and 
most importantly, Jayapura, in support of efforts to implement 
special autonomy that was approved by the Government of 
Indonesia since 2001.
    However, while en route to Jakarta, I received word that 
the Indonesian Government would only grant 3 days for my visit. 
Upon my arrival in November 3 years ago, I was informed that I 
would be granted only 1 day and that I would not be allowed 
even to visit Jayapura. As it played out, I was granted 2 hours 
in Biak and 10 minutes in Manokwari.
    In Biak, I met with Governor Suebu and our traditional, 
religious and local leaders hand selected by the government. 
Other Papuans, like Chief Tom Beanal and Mr. Willie Mandowen, 
were detained by the military until my office interceded. U.S. 
Ambassador Cameron Hume and I also had to make our way through 
a military barricade because Indonesian military forces, TNI, 
had blocked Papuans from meeting our delegation. For the 
record, I am submitting photos showing the excessive presence 
of military forces.
    In Manokwari, the military presence was even worse. Prior 
to my arrival in Manokwari, I was told that I would be meeting 
with the Governor, only to learn upon my arrival that he was in 
China and had been there for the past 5 days. Ten minutes 
later, I was put on a plane while the TNI, in full riot gear, 
forcibly kept the Papuans from meaningful dialogue with our 
delegation.
    At this time, I would like to share with my colleagues some 
videotape of my visit 3 years ago. But before showing this--
hold it--I want to give an opportunity to the members of our 
Papuan delegation. I think they have a song that they would 
like to sing for our audience. Gentlemen, please be patient 
with us. These people traveled all the way from Indonesia, so 
the least that we could do is to give them the courtesy of time 
to share some of their culture. I told them to make sure the 
song is melodious and meaningful and good for everybody to 
hear. You can come here in the front. Come right up here in the 
front row here.
    [Song performed in hearing room.]
    Mr. Faleomavaega. Thank you very much. I wanted to share 
with our government witnesses and my colleagues a little video 
that was taken on my visit to West Papua. And please go ahead.
    [Video shown.]
    Mr. Faleomavaega. That was my 10 minute experience in 
Manokwari. After this experience and upon my return to 
Washington, I wrote to President SBY expressing my 
disappointment. But Jakarta never responded to my letter 3 
years ago. And in March, 2 years ago, Chairman Don Payne of the 
Foreign Affairs Subcommittee on Africa and World Health joined 
me in sending another letter to President SBY which expressed 
our deep concern about Indonesia's misuse of military force. We 
included photographs and a DVD of my experience while in Biak 
and Manokwari. Again, Jakarta never bothered to reply to our 
letters.
    Two years ago in March, Chairman Payne and I also wrote to 
U.S. Secretary of Defense Robert Gates and included a copy of 
our letter to President SBY, as well as the DVD and 
photographs. Despite the serious concerns we raised about 
Indonesia's failure to live up to its promises to allow Members 
of Congress access to Jayapura and our request to restrict 
funding to train Indonesia's military forces, his reply in 
April was trite and indifferent, as if West Papua was of no 
consequence to our national agenda. He concluded his letter by 
erroneously stating, ``TNI performance on human rights has 
improved dramatically.'' Copies of these letters as well as the 
photographs and DVD are included for the record.
    Copies of our materials which we sent in March 2 years ago 
to the House Committee on Foreign Affairs, Senate Committee on 
Foreign Relations and House and Senate Appropriations 
Subcommittees on State and Foreign Operations and the House 
Appropriations Subcommittee on Defense and the Congressional 
Black Caucus are also included for the record.
    In March 5 years ago, Chairman Payne and I wrote to 
Secretary General Kofi Annan asking for a review of the United 
Nations' conduct in West Papua. Thirty five other Members of 
Congress from the Congressional Black Caucus signed the joint 
letter, which I am also submitting that letter for the record.
    This year, Chairman Payne and I once more have spearheaded 
an effort calling upon this administration and President Obama 
to deal fairly with the people of West Papua and to meet with 
the Team of 100 indigenous Papuan leaders during his upcoming 
visit, hopefully in November of this year, to Indonesia. 
Although our letter of June 9 of this year was signed by 50 
members of the U.S. Congress, the U.S. Department of State 
could not be bothered to send us a thoughtful reply. Instead, 
we received a dismissive letter in August signed by the 
Assistant Secretary for Legislative Affairs, rather than by the 
U.S. Secretary of State, which sends a clear signal that this 
administration may not be any different from any other in its 
response to addressing our grave concerns about West Papua. As 
a matter of record, I am also including these documents as part 
of the record.
    Also, I am including a video that, due to its sensitive 
subject matter I cannot and will not show. The video depicts a 
violent murder of a Papuan citizen who was killed, and I hate 
to use the word--gutted--by a member of the Indonesian special 
force corps, or Brigade Mobile, while the victim was still 
alive and pleading for someone to kill him in order to put him 
out of his misery. This isn't the only murder. The late Papuan 
leader Theys Hiyo Eluay was also savagely murdered, and the 
list of lives lost goes on and on.
    As the chairman of this subcommittee, I believe I have been 
very patient. Yes, I realize the importance of the U.S.-
Indonesia relationship. Indonesia is the most populous Muslim 
nation in the world, with some 224 million people, and the U.S. 
has a strong interest in reaching out to the Islamic and Muslim 
world. But our own struggle against Islamic militancy should 
not come at the expense of the pain and killings and suffering 
of the people of West Papua. This is not the America that I 
know of. We can and must do better. In his statement before the 
United Nations against apartheid, Nelson Mandela said, and I 
quote, ``It will forever remain an accusation and challenge to 
all men and women of conscience that it took so long as it has 
before all of us stood up and to say enough is enough.'' This 
is how I honestly feel about the situation in West Papua. It is 
my sincere hope that today's hearing will help us find the way 
forward.
    So far, Indonesia has failed miserably to implement special 
autonomy, and as a result, there is a sense of growing 
frustration among the Papuans, and rightfully so. I said years 
ago, and this has always been my premise in saying to my 
friends in Indonesia, since Indonesia has done such a lousy job 
in the treatment of the West Papuans, you might as well give 
them their independence. According to CRS, and I quote,

        ``Migration by non-Melanesian Indonesians from 
        elsewhere in the nation appears to be a critical part 
        of the mounting tensions. By some accounts, Melanesian 
        Papuans will be in the minority in their own homeland 
        by the year 2015.''

    There is so much more I want to say about the commercial 
exploitation of West Papua's renowned mineral wealth, which 
includes vast reserves of gold and copper and nickel and oil 
and gas, and yes, an American company, Freeport Mining Company, 
which has played a shameful role in this exploitation. I will 
address these issues in my questioning of our witnesses.
    In conclusion, I want to thank Edmund McWilliams, a retired 
U.S. Senior Foreign Service Officer of the State Department, 
who has been a long-time advocate for the people of West Papua. 
Mr. McWilliams was unable to be with us today, but he has 
submitted testimony for the record that will be included in 
today's hearing.
    I also want to welcome our Papuan leaders who have flown at 
considerable expense to testify before this subcommittee. I 
presume none flew at the expense of the Indonesian Government, 
but we will find out during these proceedings. Most Papuan 
leaders who are with us today have lived the struggle. Whatever 
the differences and whatever the situations, some have returned 
home after being refugees or in asylum in other countries, 
returned home and reclaimed Indonesian citizenship. I am 
unclear as to their role in the struggle that they have given 
up and never fully lived. I hope they will provide an 
explanation at this hearing.
    And now I recognize my good friend, Congressman Inglis from 
South Carolina for his opening statement, if he has one.
    [The prepared statement of Mr. Faleomavaega follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    Mr. Inglis. Thank you, Mr. Chairman. Just a couple of 
things. One is, thank you to those that performed. That was a 
treat to come here and hear that. And what telling video there 
that the chairman presented. And his opening statement, I 
think, shows the value of Members of Congress traveling to 
places like you traveled to. You know, I have never been to 
Indonesia, and really don't have firsthand knowledge of these 
facts. But the chairman went there, obviously at some risk to 
himself, and to do so is to gain firsthand knowledge of the 
situation. And I wish that more Americans who are in the mood 
right now of saying there is no need to do any of that could 
have seen that video and heard what you said, Mr. Chairman, 
because I think they might change their mind and realize how 
important it is for the Foreign Affairs Committee especially, 
and other committees as well, to be engaged in that kind of 
firsthand fact finding because you are able now to run a very 
knowledgeable hearing.
    So I should just defer to you and say thank you for 
essentially educating the rest of us by the video and the 
opening statement. And appreciate the opportunity to be here.
    Mr. Faleomavaega. I thank the gentleman for his comments. 
And one of the things that I think our friends from West Papua, 
Indonesia, as I tried to inform them, one of the unique 
features of American democracy is that Congress is a co-equal 
branch with the executive branch of government. Separation of 
powers, and under our constitutional privileges, we have the 
power to conduct oversight hearings as a way to counterbalance 
whatever activities or whatever it is that the President, in 
his honest opinion, is doing the right thing for the American 
people and for our Government and again, I thank the gentleman 
for his kind comments.
    And by the way, I was a little concerned, but I think 
basically what I wanted to share with my colleagues is that the 
people just simply want to meet and to express their concerns 
on some of the issues that have been lying low or under the 
table and not been brought out for public scrutiny. And this is 
something that people have asked me: ``Well, why are you so 
interested in West Papua? You are not even Papuan.'' I say, 
``That is true. But over 100 years ago, many of my relatives 
and people from Samoa were missionaries who went to Papua and 
shared Christianity as a religion with many of the Papuan 
people. And one of my relatives served as a pastor, a 
missionary there for some 17 years, and three of his children 
are buried there.'' So I guess that is the kinship with the 
people of West Papua.
    And I have always wondered, who were the so-called experts 
who divided our Pacific people, saying that Micronesians are 
people from small islands, because that is what the word, 
Micronesia, refers to; and Polynesians are from many islands. 
And then they give an ethnic description to our brothers and 
sisters from Melanesia because they are Black. That kind of has 
a little tinge of racism. And I don't know who the idiot was, 
whether he was an anthropologist or archeologist who gave this 
description to the peoples of the Pacific.
    So with that, my good friend, the gentleman, I thank you. 
The gentlelady from California for her opening statement.
    Ms. Watson. I want to thank you, Mr. Chairman. This is a 
very timely hearing to look at the situation in Papua. And I 
join you in your concerns regarding the Government of 
Indonesia. A Papuan journalist was recently found dead with 
signs of torture, reports of political repression, and 
allegations of military campaigns; disseminating indigenous 
communities. The State Department report on Indonesia released 
this year notes that although Indonesia generally respected the 
rights of its citizens, there have been problems this year 
citing killings by security forces. Though most agree that the 
crimes have been committed against the indigenous population, 
there is less agreement that it has been done in a deliberate 
and systematic way by the government in Jakarta. It is 
important to understand the intent and the method of the recent 
actions of the government. However, tensions are on the rise 
and separatist sentiments are growing.
    The Papuan people assemblies just voted against autonomy 
status because they do not feel that it is serving the people. 
In migration is also causing angst in the native population, as 
they are rapidly becoming the minority in their own homeland. 
It is important that we address this growing unrest in West 
Papua.
    The United States has already been documented going against 
the will of the people. If you recall, declassified documents 
released in 2004 indicated that the U.S. supported Indonesia's 
takeover of Papua in the lead up to the 1969 Act of Free 
Choice, even as it was understood that such a move was likely 
unpopular to the Papuans. As this administration struggles to 
find a position on the issue, I hope it will consider the 
rights and the abuse suffered by the people of West Papua. 
Indonesia is a vital nation in the fight against Islamic 
extremists, and it is a past home of our current President, 
Barack Obama. I look forward to hearing the administration's 
position and their action plan on this most dire situation. So 
I thank you, Mr. Chairman, and I yield back the remainder of my 
time.
    [The prepared statement of Ms. Watson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Faleomavaega. Thank the gentlelady for her statement. 
And at this time, I would like to introduce our two witnesses 
representing the administration. The first gentleman is Mr. 
Joseph Yun, who is currently the Deputy Assistant Secretary in 
the Bureau of East Asian and Pacific Affairs in the U.S. 
Department of State, responsible primarily for relations with 
Southeast Asia and the ASEAN countries. He previously held 
positions as Director of the office of Maritime Southeast Asia 
in the Bureau of East Asian and Pacific Affairs in the 
Department of State. He was also Minister-Counselor for 
political affairs at the U.S. Embassy in Korea. Mr. Yun's other 
overseas postings include Thailand, France, Indonesia and Hong 
Kong.
    Mr. Yun joined the Foreign Service in 1985. He is a career 
member of the senior Foreign Service. And before joining the 
Foreign Service, he was a senior economist for Data Resources, 
Incorporated, in Massachusetts. Mr. Yun holds degrees from the 
London School of Economics and the University of Wales. I am 
very, very happy that he is able to come this afternoon to 
testify.
    Our other witness today is Secretary Robert Scher. He is 
the Deputy Assistant Secretary for Defense for South and 
Southeast Asia. In this capacity, Mr. Scher serves as the 
principal advisor to senior leadership within the Department of 
Defense for all policy matters pertaining to strategies and 
plans including interagency issues for international strategy 
development and implementation. Mr. Scher's area of 
responsibility includes bilateral security relations with India 
and all other South Asian countries, and also the Pacific 
Island nations.
    Tremendous history. He has worked for some 15 years with 
the Departments of Defense and State and has held numerous 
posts covering Asian security and defense policy.
    Mr. Scher received his Bachelor of Arts degree from 
Swarthmore College with high honors, and a Master of 
International Relations from Columbia University's School of 
International Public Affairs. He was awarded the DuPont 
International Affairs fellowship.
    And gentlemen, again, I really want to thank both of you 
for taking the time from your busy schedules to testify before 
this subcommittee. And I would like to now give you the 
opportunity to make your statements. Secretary Yun.

  STATEMENT OF MR. JOSEPH Y. YUN, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Yun. Chairman Faleomavaega, members of the 
subcommittee, thank you for holding this important hearing.
    Mr. Faleomavaega. Can you put the mic closer to you so that 
you can be heard better?
    Mr. Yun. Thank you for holding this important hearing today 
and asking me to testify on the situation in Papua. With your 
permission, I would like to make brief remarks and submit a 
longer statement for the record.
    Mr. Faleomavaega. Without objection, both of the 
gentlemen's statements will be made part of the record. And if 
you have any extraneous materials you want to add to your 
statements, it will be done.
    Mr. Yun. Thank you. Developments in Papua are closely 
monitored and followed by the Department of State, and these 
represent an important aspect of our overall relations with 
Indonesia. The United States recognizes and respects the 
territorial integrity of Indonesia within its concurrent 
borders and does not support or condone separatism in Papua or 
in any other part of the country. At the same time, we strongly 
support respect for universal human rights within Indonesia, 
including the right of peaceful assembly, free expression of 
political views and fair and non-discriminatory treatment of 
ethnic Papuans within Indonesia.
    Within this context we have consistently encouraged the 
Indonesian Government to work with the indigenous Papuan 
population to address their grievances, resolve conflicts 
peacefully, and support development and good governance in the 
Papuan provinces. The administration believes the full 
implementation of the 2001 special autonomy law for Papua which 
emerged as part of Indonesia's democratic transition, would 
help resolve long-standing grievances. We continue to encourage 
the Indonesian Government to work with Papuan authorities to 
discuss ways to empower Papuans and further implement the 
special autonomy provisions which grant greater authority to 
Papuans to administer their own affairs.
    Advancing human rights is one of our primary foreign policy 
objectives, not only in Indonesia, but throughout the world. We 
want to see the right of peaceful, free expression of political 
views and freedom of association observed throughout the world, 
including in Papua.
    We monitor allegations of human rights violations in Papua 
and West Papua and we report on them in our annual Country 
Report on Human Rights. With the growth of democracy over the 
past decade in Indonesia, there has been substantial 
improvement in respect for human rights, although there remain 
credible concerns about human rights violations. The 
improvement includes Papua, although, as our annual reporting 
has documented, there continues to be some credible allegations 
of abuse. We regularly engage the Government of Indonesia on 
the importance of respect for human rights by security forces, 
and we continue to emphasize our strong support for an open and 
transparent legal system to look into any claims of excessive 
use of force.
    It is critical that independent and objective observers 
have unrestricted access to Papua in order to monitor 
development. At present, Indonesian journalists, NGOs and 
Indonesian citizens may travel freely to Papua and West Papua. 
However, the Indonesian Government requires that foreign 
journalists, NGOs, diplomats and parliamentarians obtain 
permission to visit Papua. We continue to encourage the 
Indonesian Government to give these groups, including the 
International Committee of the Red Cross, full and unfettered 
access to Papua and West Papua.
    There are several factors which have contributed to 
tensions in Papua. One is the demographic shifts. Migration 
from other parts of Indonesia has increased the number of non-
Papuan residents to about 40 percent of the current population 
in Papua and West Papua. The total population of both provinces 
is 2.4 million, of which 900,000 are migrants. Past government-
sponsored transmigration programs which moved households from 
more densely populated areas to less populated regions accounts 
for part of the influx.
    The majority of the population shift has resulted from 
natural migration trends from Indonesia's large population 
centers to Papua where there is relatively low population 
density. Some Papuans have voiced concerns that the migrants 
have interfered with their traditional ways of life, land 
usage, and economic opportunities.
    Another factor is lack of economic development. Although 
the region is rich in natural resources, including gold, 
copper, natural gas and timber, Papua lags behind other parts 
of Indonesia in some key development indicators. Poverty is 
widespread is Papua, and Papua has the lowest level of adult 
literacy in Indonesia. The region also has a disproportionately 
high number of HIV/AIDS cases compared to the rest of 
Indonesia, and high rates of infant and maternal mortality.
    Another factor I would like to mention is that the special 
autonomy law of 2001 has not been fully implemented in Papua. 
Implementation has been delayed due to lack of implementing 
regulations. In addition, the provincial governments have 
lacked the capacity to take on certain key responsibilities in 
some central government ministries, and some central government 
ministries have yet to cede their authorities. Although full 
implementation of special autonomy has not yet been realized, 
Indonesian Government officials point to increased funding to 
Papua which has totaled 27 trillion rupiah, or approximately 3 
billion U.S. dollars in the past 9 years. This is a higher per 
capita than any other area in Indonesia.
    In terms of U.S. assistance, the United States is working 
in partnership with Government of Indonesia and the provincial 
Government of Papua and West Papua to find ways to address the 
key development challenges of Papua, including good governance, 
health, education and environment protection. USAID conducts 
various programs in Papua targeting economic growth, democratic 
governance, health, environment and education. These programs 
total $11.6 million, or 7 percent of the USAID's budget for 
Indonesia for Fiscal Year 2010.
    In addition to USAID programs, the Department of State also 
brings Papuans to the U.S. for thematic engagement on issues 
like resource distribution. Our Fulbright programs had over 22 
grantees from Papua. We also partner with the private sector to 
effectively leverage resources. For example, in public private 
partnership, the Fulbright Freeport scholarship program has 
funded 18 individuals from Papua to study in the United States.
    Embassy Jakarta maintains a vigorous schedule of engagement 
in Papua and West Papua, and U.S. mission officers routinely 
travel to provinces. I understand that Ambassador Marciel, who 
arrived at post recently, plans to travel to Papua in October.
    In closing, I would like to emphasize that Papua plays an 
important role in our sustained engagement with the Government 
of Indonesia. While Indonesia's overall human rights situation 
has improved along with the country's rapid democratic 
development, we are concerned by allegations of human rights 
violations in Papua and continuously monitor the situation 
there. We urge increased dialogue between the central 
government and Papuan leaders and the full implementation of 
the special autonomy law. We will continue to provide 
assistance to build a strong economic and social foundation in 
Papua. Thank you for giving me the opportunity to testify 
before you today. I am pleased to answer any questions you may 
have.
    [The prepared statement of Mr. Yun follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Faleomavaega. Thank you Mr. Secretary. Secretary Scher.

 STATEMENT OF MR. ROBERT SCHER, DEPUTY ASSISTANT SECRETARY OF 
    DEFENSE FOR SOUTH AND SOUTHEAST ASIA, ASIAN AND PACIFIC 
          SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Mr. Scher. Thank you, Chairman Faleomavaega and members of 
the subcommittee. Thank you for inviting me to appear before 
you today to provide testimony on the Indonesian military's 
activities in Papua and West Papua. This issue is important to 
our relationship with Indonesia and one that we in the 
Department of Defense pay close attention to. I look forward to 
sustaining a dialogue with you on these and other important 
issues concerning Indonesia.
    As noted, I have submitted testimony for the record so will 
simply summarize that testimony now. Also, as you noted, it is 
important to see the situation in Papua and West Papua in the 
context of our overall relationship with Indonesia. Indonesia 
is a strategically important country to the United States for 
several reasons. It is the fourth most populous country on the 
planet. It is home to more Muslims than any other country in 
the world, and stretches across key maritime transit routes 
that connect the Middle East to East Asia.
    Since the fall of Suharto more than 10 years ago, Indonesia 
has also taken its place as the world's third largest 
democracy. In that short time, Indonesia has made great 
advancements in consolidating its democracy.
    During the past decade, the Indonesian Armed Forces, or 
TNI, have undertaken several critical institutional reforms to 
help achieve Indonesia's goal of establishing greater respect 
for human rights, accountability and civilian control over the 
military. Among these reforms are formally removing the 
military from political affairs, establishing a clear 
delineation between the responsibilities of the civilian police 
forces and the TNI, and enhancing the authority of the civilian 
minister of defense.
    While the United States has encouraged and applauds such 
reforms, it is important to note that the Government of 
Indonesia undertook them of its own volition. Indonesia's 
civilian and military leadership are both deeply committed to 
the goal of professionalization and continue to take 
significant steps to ensure that TNI is a force that 
understands the role of a responsible military in a democratic 
system. The TNI has made great strides in institutionalizing 
human rights training for its forces, but also knows that it 
has further to go. Recent steps in this effort include the 
inclusion of human rights seminars in military schooling, 
working with respected international institutions, such as the 
Norwegian Center for Human Rights and instituting refresher 
training prior to deployments. Respect for human rights is now 
a core feature of TNI doctrine, and all deployed soldiers are 
required to carry a booklet explaining the proper treatment of 
non combatants. Of course, the Department takes seriously any 
allegations of human rights abuses committed by Indonesian 
security forces no matter where they occur. When we hear of 
specific abuse allegations, the United States Government 
follows up on them through the appropriate State Department 
channels.
    We recognize that there have been allegations of human 
rights abuses in Papua and West Papua. The Department of 
Defense takes these allegations very seriously, as we believe 
respect for human rights is a core mission of all responsible 
security forces. However, we have not yet seen any evidence to 
suggest that the incidents under discussion are part of a 
deliberate or systematic campaign by the TNI or Government of 
Indonesia. Moreover, the Government of Indonesia has stated 
that there are no ongoing military combat operations in Papua 
or West Papua.
    While Indonesian security forces do not have a perfect 
record over the past years, their reforms are continuing and 
moving in the right direction. Earlier this year, the 
Indonesian Defense Minister issued a public statement 
addressing Indonesia's military's commitment to protecting 
human rights, explaining that reforms are in place to prevent 
future abuses, and expressing the TNIs commitment to holding 
human rights violators accountable.
    Secretary Gates was recently in Jakarta and said,

        ``My view is that, particularly if people are making an 
        effort to make progress, that recognizing that effort 
        and working with them further will produce greater 
        gains in human rights for people.''

    Put in other words, DoD simply believes that it is 
important to continue engagement with the TNI, in part, to 
continue to emphasize the importance of these reforms and the 
importance of continuing to make progress on these issues. We 
make clear that respect for human rights is an essential 
component of professional military behavior, and these issues 
are raised in every formal meeting I have with my Indonesian 
counterparts as recently as last week. Therefore, the 
Department and the U.S. Government will continue to treat any 
allegations of abuse with great seriousness. But together with 
our State Department colleagues, we will continue to closely 
monitor allegations of human rights abuses and work with the 
TNI and Indonesian Ministry of Defense toward appropriate 
investigation and accountability.
    Thank you for this opportunity, and I look forward to 
answering any questions.
    [The prepared statement of Mr. Scher follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Faleomavaega. Thank you very. Appreciate very much your 
statements. And we do have some questions. Secretary Yun, as 
you know, I met with President Megawati when she visited here 
in Washington, DC, and I was very hopeful and very happy to 
learn that the Indonesian Parliament had passed a law to 
provide special autonomy for the West Papuans. In fact, she 
even invited me to come to West Papua and to dialogue and to 
meet with the government leaders there. Well, this was 2001. 
And as I said in my statement earlier, this is one of the 
concerns that I have because I felt that special autonomy was 
the consensus among the Papuan leaders, and that just a sense 
of some respectability as to their basic fundamental rights 
allowed an opportunity for them to build their infrastructure, 
better roads, hospitals, health care centers, whatever it is 
that is needed.
    And also, to establish a similar relationship as I recall 
in my meeting with President SBY, he was very excited and very 
happy with the fact that they were successful after 30 years of 
negotiations with the Aceh situation and with the 
implementation of a special autonomy law that was made for the 
Aceh people. And he felt that perhaps a similar thing could 
also be done for the people of West Papua. And I was very 
excited about that.
    Well, Mr. Secretary, this is 9 years later now. And as you 
said, changes have been made in the special autonomy law. So I 
am just curious. What do you see as the basis--is this the 
current policy of the Indonesian Government to implement the 
2001 special autonomy law? Are we in for another discussion or 
dialogue in terms of what is to be done with the people of 
Papua?
    Mr. Yun. Thank you, Mr. Chairman. Very much agree with you. 
If the 2001 special autonomy law can be fully implemented, we 
do believe that a lot of frustration currently felt by Papuans 
will decrease. It has been slow in coming and I think even this 
year, there have been a couple of incidents, Puncak Jaya is one 
as well as others that we believe is caused by Papuans feeling 
that special provisions such as cultural protection and special 
positions. For example, there was strong demand that at bupati 
level, which is the county chief level, that they should be 
Papuans rather than migrants. I think those grievances are very 
much felt, and if the Indonesian Government in Jakarta, the 
central government, can speed up the implementation of special 
autonomy law, a lot of those grievances will, I wouldn't say 
disappear, but will be somewhat lessened.
    Mr. Faleomavaega. Is there a special agency or official, 
specifically assigned by the President to address the issues of 
West Papua and the current relationship? This is where I am a 
little fuzzy. I understand that some minister of social welfare 
or something was being assigned that task, but I am not sure if 
that is true.
    Mr. Yun. As you know, the discussions take place between 
Papuan-elected officials. The two Governors in Papua are 
elected and they are Papuans, as well as deputy governors. And 
it is my understanding all of the mayors and the county chiefs 
are also Papuans. As well, they also have a separate body which 
represents the cultural protection as well as a consultative 
side of Papuan society, and they are represented in Jakarta and 
I understand that they travel to Jakarta to consult with the 
Parliament there. And I am not quite sure who in Indonesia is 
the point-person for making sure that special autonomy 
legislation is fully implemented. I am not sure there is one 
honestly.
    Mr. Faleomavaega. Can you provide for the record who this 
is? Because I am at a loss myself in terms of understanding 
what it is.
    Mr. Yun. Yes, sir.
    [The information referred to follows:]
  Written Response Received from Mr. Joseph Y. Yun to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega
    The Ministry of Home Affairs is formally tasked with overseeing 
Special Autonomy for Papua. The Office of the President takes an active 
interest in Papua, as do a number of other ministries within the 
Indonesian government.

    Mr. Faleomavaega. I know you mentioned in your statement 
that it always has been the policy of our Government to respect 
the territorial integrity of another country, no different than 
Indonesia not telling the United States what to do in dealing 
with Native Americans, for example. I am fully aware and 
understand that situation. And it has been a little difficult 
too in that sense. So we use that as the basis for saying that 
we can't really do any more other than engage Indonesia if it 
feels like talking to us or helping with the needs of the 
Papuans. Otherwise, is there really anything more that that we 
can do?
    Mr. Yun. Last week, for example, we had, as you know, the 
launch of a Joint Commission with Indonesia. And under this 
Joint Commission, which was launched by Indonesian Foreign 
Minister Natalegawa and Secretary Clinton, we did create six 
working groups. And one of the working groups dealt with 
democracy and civil society. And during those working group 
meetings, we did have a discussion and those discussions 
centered around how maybe we can get more access in Papua, 
especially the international NGOs such as the International 
Committee of the Red Cross.
    And so I think our immediate task is really getting through 
a dialogue, a serious dialogue with the Indonesian side so that 
we make some progress and we discuss especially the allegations 
of human rights that are out there. And I am sure the next 
panel will discuss them. And because honestly, the U.S. 
Government cannot send an investigation team, of course, 
whenever there is an allegation, but we do want to discuss them 
and see whether they are serious and consult with the 
international community as well as civil society.
    Mr. Faleomavaega. I am very much aware of the fact that 
sometimes issues where countries express their sovereignty, 
that matters are considered internal matters, and is none of 
the business of other countries trying to tell Indonesia what 
to do, how they want to do things. And I just want to make the 
record clear that this is not the intent of this hearing, nor 
is it the intent of this hearing just to talk about human 
rights violations. As I said, years ago, and I still firmly 
believe, if we are trying to work together with the government 
to implement the provisions of the special autonomy law, 
because that was the consensus that I got years ago from the 
Papuan community and their leaders, that they are willing to do 
this.
    But somehow, as you had stated, there just has not been a 
plan put forward by Jakarta saying how exactly they will 
implement the provisions of the special autonomy law. And I 
think this is where we seem to have an impasse either because 
of the difficulties or because they just don't feel like it.
    I kind of like to hope in good faith and wish that the 
Indonesian Government is really sincere. Let me say this for 
the record, I sincerely believe that President SBY really wants 
to reach out and help the people of Papua. I also fully 
understand that he faces constraint. A lot of pressure is 
coming from other sectors of the Indonesian community that puts 
him in a very difficult situation, as you mentioned. So I am 
very much aware of that. But I just want to note that, and 
wanted to know in our administration, as we are advocating more 
openness by the Indonesian Government, to see what is being 
done to give assistance to the Papuan people. I have got a 
couple more questions, but I want to give this opportunity to 
my colleague from California for her line of questions.
    Ms. Watson. I just want to follow up, Mr. Chairman.
    In your observation of what is going on, and we recognize 
the sovereignty, as has been mentioned, and what our role is, 
but do you feel that the Papuans are under threat in their own 
land? Does it seem like they are becoming a minority, or are 
they already a minority in their own land? Your observations.
    Mr. Yun. My observation is that they are not yet a 
minority. I think the numbers show that it is at about 60/40 at 
the moment; 60 Papuans, as opposed to 40 migrants. However, 
clearly, if this trend continues, they will be a minority and 
probably in quite a short amount of time.
    I think that is one of the greatest frustrations among 
Papuans, is the demographic shifts. The special autonomy law 
does create some protection for Papuans, a lot of protection 
for Papuans, and this is why it is important to implement those 
laws.
    Ms. Watson. Could the motivation be the wealth of natural 
resources there in Indonesia?
    Mr. Yun. I don't think it is necessarily. In my view, it is 
not only about dividing the economic pie. I think there is a 
lot more than that. There are cultural reasons, and, as the 
chairman indicated, deep-rooted historical reasons.
    In fact, I think, in terms of economic resources 
transferred, as I mentioned in my testimony, it has been 
substantial. But it is also about the capacity to use those 
economic resources, and I think it is also about the political 
position each group will hold.
    So I think the growing frustration--I mean, we do have a 
trend, I believe, where in fact, as Bob mentioned here, there 
has been less and less human rights violation incidents. 
However, that hasn't been accompanied by Papuans themselves 
feeling less frustrated. So we do have those two trends, which 
are somewhat contradictory. And I think it has to do with 
migration, with the economy in comparison with the rest of 
Indonesia falling behind.
    So, it is a complicated story. And frustration is also felt 
in Jakarta by the Indonesians, and I am sure Chairman 
Faleomavaega has heard that, which is they have given them at 
least what they thought was a lot of leeway. They are governed 
by Papuans. The two Governors--they have considerable power--
are Papuans. The deputy governors are Papuans. The county 
chiefs and mayors are Papuans. Yet it doesn't seem to have 
resolved the basic underlying grievance.
    Ms. Watson. I was wondering how involved will the U.N. be 
if the conditions continue as they are now?
    Mr. Scher, maybe you want to comment?
    Mr. Scher. You can go ahead.
    Mr. Yun. Thank you, Bob.
    It is very much an internal issue, and I am sure we all 
appreciate that. It is an internal issue. It is a domestic 
political issue. But having said that, of course, we do, 
everyone, the international community has an interest in good 
governance, in meeting the commitment of Indonesia toward the 
international community.
    And I would say that we have stressed this over and over 
again: There has been a democratic transition in Indonesia, 
President SBY has been reelected by an enormous majority, and 
there is a strong civil society in Indonesia, as well as a 
healthy Parliament. So it is really for them to work this 
through.
    And I think, obviously, you know, the U.N. can help as well 
as international organizations. I am sure you will see in the 
next panel, you know, for example, we do have Human Rights 
Watch, who have personnel out there in Jakarta, especially, and 
they will give us a good report on what is going on.
    So in this day where communication is quick, we are going 
to learn and we are going to know what is going on. So however 
basically it is a domestic Indonesian issue, and I do believe, 
given the democratic transition, we will make improvements.
    Ms. Watson. I yield back, Mr. Chairman.
    Mr. Faleomavaega. Thank you.
    Secretary Yun, you mentioned that one cause of the delays 
in giving provincial governments the opportunity to develop was 
the fact that for a 9-year period, Jakarta gave some 3 billion 
U.S. dollars as part of the infrastructure development, which 
is high on a per capita basis compared to other provinces. And 
so other provinces within Indonesia express disappointment over 
why West Papua was given all that money. Well, it also happens 
to be that the largest corporate taxpayer to Jakarta is the 
American Freeport Gold Mining Operation, which operates right 
now in West Papua. So, by all means, all the mineral resources 
coming from West Papua, I think it right that they should be 
getting some of that money back since these are their 
resources.
    But I do want to give credit where credit is due, there is 
no question. The last time I met President Suharto, he was very 
ill, and on the eve of finally giving up his presidency. 
Elections were then conducted, and I do believe in giving 
credit where credit is due. Indonesia has come a long way.
    The two national elections of President SBY have 
demonstrated that a major Muslim country is committed to 
democracy and the principle of the ballot box in determining 
leadership. I am very much aware of that.
    But at the same time, I do want to say that maybe we are 
not doing enough to give assistance to Indonesia, or is it 
because of the problems internally within Indonesia that has 
made the process very slow in implementing the autonomy act? My 
point is, if it was possible to implement the special autonomy 
for Aceh, why couldn't they do the same for West Papua? Is it 
the language? Culture? There are no ethnic ties, nationality, 
culturally, between the Javanese people of Indonesia with those 
of Papua. I think that is a bare fact that we have to admit.
    But I am curious and wanted to know from both of you, what 
is the administration's position in terms of dealing with West 
Papua? We can all talk about, Oh, we sent a cablegram. We have 
talked to the people there, our counterparts through our U.S. 
Embassy, and all of that.
    Mr. Secretary, it has been 9 years and I am still waiting. 
Some say, ``Well, why are you in a rush, Eni?'' You know, it 
has been going on now for 60 years, and there is still not much 
opening in terms of giving the people of West Papua their basic 
fundamental rights. I think that is basically in my discussions 
with the leaders of Papua; just treat us with decency. Give us 
the right to pursue--and at the same time be part of the 
overall bigger picture in terms of their involvement in being 
made part of the national government in Jakarta.
    So that is basically what we are trying to pursue here. I 
wanted to ask Secretary Scher a little question here. Where do 
our strategic and military interests come into play in dealing 
with Indonesia?
    Mr. Scher. We see the strategic and military interest as 
part of the broader picture of interests of Indonesia. It is 
difficult I think to divide all of them. I obviously spoke 
about some of the broader interests that we have in strategic 
interests.
    But as a very important part, we play a supporting role in 
the Department of Defense for the overall foreign policy, and 
so we use the tools we have at our disposal to help build 
further U.S. policy to serve our interests and help build 
partner capacity in countries that share common interests.
    So I am not one to be able to say how we rank different 
pieces, but it is obviously a very important piece, and it is 
one that we think we bring valuable tools to achieve our 
overall U.S. objectives and goals.
    Mr. Faleomavaega. Secretary Yun, you indicated that 
journalists do travel freely to Papua and West Papua. I want to 
share my own experience. I was supposed to go there for 3 days, 
and I ended up with 2 hours and 10 minutes.
    Mr. Yun. I am sorry, sir, I think that has to be corrected. 
I said Indonesians can travel freely to Papua, Indonesian 
journalists and others. But foreign journalists, diplomats and 
overseas civil society, NGOs, they have to get permission 
before they can travel to Papua.
    Mr. Faleomavaega. Well, I think the question now before us 
is, where do we go from here? It is my understanding that there 
have been some rumblings in some of the sectors of the Papuan 
community that special autonomy has failed and they want 
something else. Are you aware of that?
    Mr. Yun. Yes, sir.
    Mr. Faleomavaega. Do you believe that our policies should 
include continuing to work with Indonesia in implementing 
special autonomy?
    Mr. Yun. Yes, I believe that. I think we need to continue 
to work with the Indonesian Government and work with the 
international community. I think those two are crucial. The 
Indonesian Government, I believe, as it has happened over the 
past decade, as civil society and as democracy takes even 
firmer root, I do think there will be a tendency, an increasing 
tendency, to look at Papua as what it is, which is part of 
Indonesia, and work toward that, taking into account Papuan 
culture, history.
    A lot of issues that have been disappointing have to do 
with lack of implementation of the special autonomy law rather 
than the special autonomy law itself.
    Mr. Faleomavaega. In our own experience in dealing with 
colonialism, we fought against the most powerful country in the 
world at that time during the Revolution, and we defeated the 
mighty British Empire.
    As a matter of principle, as we all know, Indonesia was a 
colony of the Dutch and so was West Papua. And when Indonesia 
became independent, West Papua was made part of Indonesia, 
when, in fact, culturally, historically, in every way, there is 
just no connection whatsoever between the Papuan people and the 
Indonesian people.
    So how do we balance it? How do we say that it is okay that 
Papua, a former colony, is taken over by another former colony? 
Justifies the fact that a better consideration be given to the 
Papuan people than just simply say, You are part of Indonesia, 
no ifs, ands or buts, and that is it.
    Mr. Yun. Mr. Chairman, I don't know whether that was a 
question. I mean, I would fully agree with you; history is full 
of oddities. And for us now to go back and correct that is not 
a possible task. We are what we have today, and we have to work 
with what we have today, and this is the reality.
    I do sympathize that there is tremendous ethnic-cultural 
division in these areas, let alone in Papua, within Indonesia 
itself.
    So we do have to recognize the integrity of Indonesia, its 
territorial integrity, but that does not mean that we should 
ignore history. But, at the same time, we cannot correct 
history.
    Mr. Faleomavaega. Well, with all due respect, Mr. 
Secretary, South Africa comes to my mind, that apartheid was 
practiced in the worst way. Black people who held the majority 
in population of South Africa were treated almost like animals, 
as far as I am concerned. And year after year after year, even 
pleading with the European countries and even with our own 
Government, as a matter of principle, is it right that 
apartheid was practiced the way it was done in South Africa, 
where thousands and thousands of people were killed? There is 
no question there was bloodshed.
    So you are saying it is okay to disregard the past, just as 
it was in the struggles of Mr. Nelson Mandela and other Black 
leaders dealing with the South African apartheid issue, where 
there was a lot of resistance.
    As a matter of principle, is it proper for Black people, 
who were the vast majority in the country, to be treated as 
less than human, with all the civil rights and everything not 
even part of it? But history then kind of put itself forward in 
saying it is not right.
    What I am suggesting here, and I am not trying to plead 
that Indonesia work now toward granting independence for Papua. 
What I am asking is, are they giving proper treatment? Are they 
respecting the right of the Papuan people to be part of the 
national government and all of that?
    Do you feel that change will be forthcoming, or are we just 
going to continue another 10 years, as I have been waiting for 
the last 9 years for special autonomy and nothing happened?
    Mr. Yun. Mr. Chairman, I do agree with you that tremendous 
improvements can be made in the situation in Papua, but I don't 
think I would agree that the situation in Papua in any way 
resembles the situation in South Africa during the height of 
apartheid. I don't think I would agree to that.
    Am I optimistic that the situation will be improving or 
continue to improve? I think that depends on the route of 
democracy and whether freely elected governments and all the 
institutions that go with such governments, such as law and 
order and accountability and parliamentary democracy and also 
accountability of regional governments. If they can go 
together, then I am very optimistic that the situation in Papua 
will improve.
    Mr. Faleomavaega. Secretary Scher?
    Mr. Scher. Certainly, I defer to Deputy Assistant Yun.
    I would just say I think it is a constant--it is a struggle 
for much of the Government of Indonesia deal with the wide 
range of heterogeneous populations that exist within the 
incredibly large archipelago, and certainly, they are doing it 
better in some places than others. And clearly West Papua and 
Papua I think is a place where there is need for improvement in 
how they are addressing this.
    But I do think that it is worthwhile to note that the 
success of this experiment, of being able to include a wide 
variety of different ethnic, linguistic groups into a country, 
is one that we have done very well with here in the United 
States, and I think that we should realize and hope and support 
any country that is trying to do the same thing under the 
democratic system that we see within Indonesia.
    Mr. Faleomavaega. Well, gentleman, I deeply appreciate your 
statements and the dialogue. Do you have any further statements 
you want to add for the record?
    Mr. Yun. No.
    Mr. Scher. Thank you.
    Mr. Faleomavaega. Thank you very much. I appreciate your 
coming.
    For our next panel of witnesses, we need to set up the 
table there, if we could have our friends that are going to be 
testifying here. For our panel of witnesses we have this 
afternoon, I want to introduce our distinguished witnesses for 
the record.
    At my extreme left is Dr. Pieter Drooglever, who has a 
doctorate from Utrecht University in history. His doctoral 
dissertation explored the internal politics of the Dutch East 
Indies in the 1930s. As a staff member of the Institute of 
Netherlands History from 1969 until 2006, his main project was 
editing a 21-volume collection of source materials on Dutch-
Indonesian relations from 1945-1963. This project was completed 
at the time of his retirement 4 years ago.
    He also wrote a series of articles and other books on 
related subjects. His final study, his book on the Act of Free 
Choice in West Papua, was published in English last year, and 
it is expected the Indonesian language version will be coming 
out this year. He served on the board of several key 
institutions and committees promoting the study of Indonesia 
and the Netherlands. He also is a professor of history at 
Radboud University in Nijmegen. I hope I pronounced that 
correctly.
    Our next witness, oh, boy, they got the sequence mixed up 
here. We will work on Mr. Mote's bio. It is not here.
    Our next witness will be Mr. Henkie Rumbewas. He worked 
with the United Nations in East Timor to investigate human 
rights abuses during the period of Indonesian administration. 
He is a refugee from Biak in the Papua province who witnessed 
the detention and torture of his father during the 1969 Act of 
Free Choice. Mr. Rumbewas is an Australian citizen who travels 
freely with delegations from Australian Protestant churches to 
his home to do humanitarian and educational work in rural 
areas.
    Mr. Nicholas Messet is here with us also. He has been the 
director of human resource development and general affairs for 
Sarmi Papua Asia Oil for 2 years now. He is deputy chairman of 
the Independent Group Supporting Special Autonomous Regions 
with the Republic of Indonesia Foundation in Jakarta and has 
been assistant moderator in the Papua Council Presidium for 10 
years now. He is a pilot with Islands Nation Air in Port 
Moresby, as well as in Bougainville, Buka, Vanimo and Kimbe, 
Papua New Guinea. He is also a pilot with Air Vanuatu. He is a 
pilot with Air Niugini. He worked as a flying instructor for 
the Nation Aviation Space Academy. He worked with the 
Australian Broadcasting Commission and with the Public Works 
Department in Port Morseby.
    On his educational background, he trained with Piedmont in 
Greensborough, North Carolina, and Pan Am in Miami, Florida, 
for wide-body aircraft, B727s and 737s. Since 1988, he trained 
with American Flyers in Santa Monica. He trained with Nation 
Air Cooperation. He has a very distinguished record as a pilot 
and aviator for that reason. As a member of the foundation 
team, he witnessed Mr. Nicholas Jouwe reinstated as a full-
fledged citizen of the Republic of Indonesia by Minister for 
Justice and Human Rights, His Excellency Patrialis Akbar, and 
the Minister Coordinating for Social Services.
    Mr. Messet has been a member of several delegations 
traveling all over the world, the United Nations, even here in 
the United States. Five years ago, he returned voluntarily to 
Indonesia after living in exile for some 36 years. As a result, 
he is now a full fledged citizen and a strong advocate of 
special autonomy status for the people of Papua. He is fluent 
in the Bahasa Indonesian, Dutch, English and Swedish languages. 
Boy, that is quite a deal there, Mr. Messet.
    Octovianus Mote did his undergraduate studies in the Social 
and Political Science Faculty of Parahyangan Catholic 
University in Bandung, Indonesia. He began working as a 
journalist for Kompas, a leading daily newspaper of Indonesia, 
in 1988. From 1998-2001, he was bureau chief of Kompas for West 
Papua. He led a historic team of 100 to meet with President 
Habibie.
    Mr. Mote obtained political asylum in the United States 
following death threats. He is now visiting fellow at the 
Cornell University Southeast Asian Program and the Genocide 
Studies Center of Yale University.
    Mr. Salmon Mauritz Yumame is a retired executive of Telkom, 
the Indonesian Government communications company. He is 
chairman of the Democratic Forum. He has been involved in a 
dialogue with the Governor's office and the Indonesian 
Department of Interior over the implementation of special 
autonomy.
    In June and July of this year, some 20,000 people took to 
the streets in demonstrations against FORDEM's call to return 
the special autonomy law to the Indonesian Government.
    Eben Kirksey is a visiting assistant professor at the CUNY 
Graduate Center in New York. In 1998, he was an exchange 
student at Cenderawasih University, where he witnessed the 
shooting of fellow students and a subsequent massacre in Biak. 
He earned his B.A. in anthropology and biology from New College 
of Florida. As a Marshall Scholar at the University of Oxford, 
he studied Indonesian state violence in the Provinces of Papua 
and West Papua. After earning his master's in philosophy from 
Oxford University, he completed his doctoral program at the 
University of California at Santa Cruz. It is expected that he 
will be publishing a book concerning the issue.
    Ms. Sophie Richardson is the acting director of Human 
Rights Watch, Asia division, and oversees the organizations' 
work on China. A graduate of the University of Virginia and 
Oberlin College, Dr. Richardson is the author of numerous 
articles on domestic Chinese political reform, and on 
democratization and human rights in Cambodia, China, Hong Kong 
and the Philippines. She has testified before European 
Parliaments and the U.S. Senate and the House of 
Representatives. She has provided commentary to the BBC, CNN, 
Far Eastern Economic Review, Foreign Policy, and a whole host 
of other organizations.
    Did I miss anybody? I think we pretty much covered our 
bases.
    I would like at this time for Dr. Drooglever to give his 
testimony.
    Again, without objection, all your statements will be made 
part of the record. If you have any additional materials that 
you want to add on to be made part of the record, yes, do so.
    Also, because of the number of witnesses that we have, if 
you could please be concise and limit your statements to 5 
minutes. So give us the meat. Don't go all over the world and 
go to the moon and then come back and miss the point. Give us 
the meat of your statements. As I said, your statements will be 
fully made part of the record.
    Again, I want to thank all of you, especially those of you 
who have traveled all the way from Indonesia to come and 
testify before this subcommittee.
    As I said earlier, I am not aware that in the history of 
Congress, either in the Senate or in the House, that an 
oversight hearing has ever been held concerning West Papua. So, 
consider yourselves pioneers.
    As to what direction this hearing is going to take us in 
the future, I want to assure you, ladies and gentlemen, that my 
purpose in this hearing is not to point fingers and say any 
disparaging things to embarrass the Government of Indonesia. 
But it would be very helpful for my colleagues and for the 
American public to know more about your people and understand 
that some 2.2 million people live in Papuan and West Papua, and 
we do take an interest.
    Someone once said that here in America, there is, after 
all, one race, and that is the human race. I think if we 
understand that in terms of the principles involved here, we 
will, I think, elevate this issue and hopefully something good 
will come as a result of this hearing.
    Professor Drooglever. I might also add before he begins his 
statement, this is a copy of the book that Professor Drooglever 
gave me, almost 700 pages. I spent all last night reading the 
book, Professor Drooglever. To my knowledge, this is probably 
the most comprehensive work ever done on the history of the 
situation in Papua and on Indonesian, U.S. and U.N. 
involvement.
    I am making a plug here for him. Buy the book.
    What is interesting about this is that he was assigned by 
the Dutch Parliament, if I remember correctly, to do a study 
about West Papua under condition that he be given absolute 
access and freedom to do the research in the archives and 
documents and everything, for which it was promised and it was 
given, the archives here in the United States, Great Britain, 
France, Netherlands but not, unfortunately, Indonesia. But 
hopefully maybe one day you will be given access to do a study 
there, too.
    So I just want to say I was very, very impressed, Professor 
Drooglever, with this scholarly work that you have done. Five 
years is a long time. I don't think I could ever write a book 
taking that long, taking 5 years to meticulously document and 
put everything in mind in terms of explaining to the public, 
scholars and to everybody, for that matter, what happened.
    So, Pieter, please, proceed.
    Mr. Drooglever. Thank you, Mr. Chairman. You have given an 
excellent example, and I hope many will follow.
    Well, the book then, ``The Act of Free Choice, 
Decolonization and the Right to Self-Determination in Papua,'' 
that is the subject. That book gives----
    Mr. Faleomavaega. Can you put the microphone closer to you? 
I know you have a very strong accent.
    Mr. Drooglever. Thank you. Yes, I will do my best.
    Mr. Faleomavaega. You know, we Americans, we have a very 
difficult time in speaking. I am still learning how to speak 
English, by the way, so forgive me for this.
    I know you tend to speak very fast, but please help me. Go 
at about 50 miles an hour, and I think I can grasp it. Thank 
you.

  STATEMENT OF PIETER DROOGLEVER, PH.D., PROFESSOR EMERITUS, 
                INSTITUTE OF NETHERLANDS HISTORY

    Mr. Drooglever. The book gives an overall picture of the 
history of West Papua, a territory that was only brought under 
effective rule of the Netherlands in the 20th century. The 
focus of the book is on the post-war history of the territory.
    It explores Papua's exclusion from the transfer of 
sovereignty to Indonesia in 1949, the subsequent conflict with 
Indonesia, and origins of the New York Agreement signed in 
1962.
    The parties to this agreement decided to hand over the 
territory to Indonesia through the intermediary of a temporary 
U.N. administration. That New York Agreement stipulated that 
after a period of Indonesian rule, there would be a plebiscite 
for the Papuans in which they would be able to choose between 
permanent integration within the Indonesian state or not. That 
plebiscite, called the Act of Free Choice, had to be organized 
by Indonesia under the terms put down in the New York Agreement 
and carried out under supervision of the United Nations.
    It took place in 1969, and it resulted in a unanimous vote 
in favor of permanent inclusion in Indonesia. None of the 
United Nations observers present in the field nor observers 
from abroad believed the results. The evidence brought forward 
in my book allows for no other conclusion then that the outcome 
was in no way representative of the real feelings of the 
population. Under the eyes of the United Nations, the Act of 
Free Choice perpetuated an era of repression and deprivation 
for the Papuans that essentially continues until the present 
day.
    In this story, a few points are relevant for the hearing 
today. One, the final period of Dutch administration between 
1950 and 1962 was a belated effort in preparing the Papuans for 
self-determination. It led to the creation of a small but 
rapidly expanding young Papuan elite who entered the 
administration and educational system in increasing numbers.
    They developed a communal feeling and a nationalism of 
their own. Political life sprang up, and a national committee 
decided for a flag and an anthem for the Papuans. Upon 
instigation of the Dutch, plans were developed for self-
determination in or around 1970. For the Papuan elite, the 
entrance of the Indonesians shortly afterwards, after the 
conclusion of the New York Agreement, was a certain shock which 
made an end to their dreams of future independence. The Papuans 
felt like they had been betrayed by the world.
    Two: The New York Agreement was brought about under 
pressure from the United States. At the end of the Eisenhower 
administration, The State Department drafted a document that 
later was to form the basis of the New York Agreement.
    U.S. officials first proposed the idea of a new and interim 
administration before transfer to Indonesia. Following pressure 
from the Dutch, some paragraphs of self-determination were 
added in, but these were weakly worded as a result of 
Indonesian counter pressure. So, the foundations for the 
enactment Act of Free Choice were already laid down in 
agreement itself.
    In 1962, when the New York Agreement was formulated, the 
Indonesians were in a position to put strong pressure upon the 
Dutch. The Republic of Indonesia had assembled in the space of 
a few years an impressive invading force. They had advanced 
weaponry, ships and airplanes that had been supplied both by 
the Americans and the Russians.
    Earlier U.S. promises of military support for the Dutch in 
case of an Indonesian attack were played down gradually during 
the negotiations. The Dutch were confronted with a war that 
would have to be fought without American support.
    Moreover, in the Netherlands itself, a longing for better 
relations with Indonesia, its former and dearest colony, was 
growing stronger. This mixture of circumstances and arguments 
and sentiments forced the Dutch Government to give in.
    Then the fourth point. Under these conditions, the role of 
the military in the Indonesian victory of 1962 was undeniable 
and conspicuous. Indonesian soldiers were well aware of this. 
When given access to New Guinea, as it was called that still, 
in October 1962, they took possession of the territory in a 
spirit of victorious occupational army. The Dutch slipped out 
under U.N. protection, and for them, that was an advantage 
indeed. But the Papuans had to cope with the soldiers and 
accompanying officials.
    From the beginning, the Indonesian army was the prime force 
in the administration of the territory. It was carried out in a 
very rough-handed way, with hardly any appreciation for the 
special character of the Papuan worlds.
    For most Indonesians, West Papua was a place of banishment. 
Yet, in the beginning at least, they enjoyed taking over a 
comfortable colonial administration. The typewriters, the 
hospital equipment and all the elements of the basic 
infrastructure were taken away. Jobs of the Papuan elite were 
taken over, the educational system graded down, and the civil 
society of West Papua slipped down the road toward greater 
misery.
    After General Suharto became President of Indonesia, the 
new minister of foreign affairs, Adam Malik, visited the 
territory. Malik was shocked by the desolation he found there. 
The Javanese civil servants had robbed the country blind. 
Embitterment reigned everywhere, in his own words.
    Malik promised improvement, but in effect, his government 
brought increasing military oppression. The first operations of 
the Papuan resistance had already started in 1965, and were 
countered by Indonesian soldiers with maximum violence. The 
number of victims is hard to determine, in large part due to 
lack of access to the territory by foreign observers.
    Altogether, the casualties ran into the thousands already 
by 1969. By most estimations, the violence increased until 
April 1985, and then slowed down afterwards; yet it is still a 
harshly governed territory, but this is outside the scope of my 
book. That is for my neighbors.
    [The prepared statement of Mr. Drooglever follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Faleomavaega. Thank you, professor.
    Mr. Mote, for your testimony.

 STATEMENT OF MR. OCTOVIANUS MOTE, FOUNDER, WEST PAPUA ACTION 
           NETWORK, PRESIDENT, PAPUA RESOURCE CENTER

    Mr. Mote. Thank you, Mr. Chairman, for this historical 
testimony for us. On behalf of my nation, I would like to say 
thank you.
    Let me start by making a statement that the special 
autonomy in West Papua has failed. This was the conclusion 
drawn not by just a particular group that fights for 
independence, but the Papua Customary Council, and then the 
Papua Presidium Council. The Governor of West Papua also 
assigned a local university to evaluate the autonomy. The 
conclusions are the same as the aspirations of these people.
    Recently, the same university organized a seminar in the 
University of Indonesia and also tried to explain that this 
special autonomy has failed and tried to get support from other 
universities in Indonesia to raise that concern.
    As a background, Congressman, when this autonomy was raised 
I was in Papua as the bureau chief of Kompas Daily, the biggest 
newspaper.
    The dictatorship of President Suharto, who ruled Indonesia 
for 32 years, came to an end in 1998 amidst a widely popular 
reform movement that swept this island nation. The era of 
comparative freedom that came with the end of Suharto's rule 
opened new political opportunities for the people of West 
Papua, as well as Timor and Aceh.
    Nationalist movements developed grassroots support in each 
of these territories. Public demonstrations in Papua, which 
featured the flying of the Morning Star flag, were staged 
throughout the territory in 1998.
    A delegation of 100 Papuan leaders met with President 
Habibie. I was appointed by the Government of Indonesia to 
facilitate that meeting. In the palace, on October 25th, 1999, 
people expressed their experience under Indonesian control, and 
then they said, ``Let us go to maintain ourself.''
    Right after that meeting, Mr. Chairman, I was accused by 
the Government of Indonesia, and I was put on a travel ban to 
abroad. Luckily, at that moment, I was invited by the U.S. 
Government. I traveled to the U.S. and then I received 
political asylum in this country.
    Mr. Chairman, there are a couple of aspects of progress 
that we can admit that happened under special autonomy, which 
is the funding, for instance, the amount of money that was just 
mentioned. But the problem, Mr. Chairman, is that the Governor 
of West Papua admitted that more than 80 percent of that 
funding is going for the government for salary and to build new 
regencies that the Government of Indonesia is extending right 
now.
    When I was there as a journalist, Mr. Chairman, it was just 
nine regencies. Right now, we have 30 new regencies, and all 
this money is going for the new construction for the public 
servants that come to the regencies. This is one of the 
threats, Mr. Chairman, about the Papuans, that we feel we will 
extinct even faster than what we were thinking of before.
    Another point I would like to raise, Mr. Chairman, is about 
the security in West Papua. On the proposal that the West 
Papuans, the people that are preparing this special autonomy, 
they tried to put the security under the Governor's control, 
but it was cut out, and it stated that ``no civilian authority 
can control the military.'' And right now, Mr. Chairman, the 
number of the troops is extending more and more.
    Under Indonesian law, each and every regency is allowed to 
form a new district for the military. So it is just a matter of 
time that the military will extend more and more troops under 
Indonesian law. So, so far, the military are the same. There is 
nothing changed in the military's attitudes in West Papua.
    The Papuan people right now, they reject this special 
autonomy, Mr. Congressman, basically not just because they 
don't get any education, the economic and the welfare issue, 
but really because they see that they are really about to 
extend. And they can see in almost all of the big cities in 
West Papua, Mr. Congressman, the population is 60 percent 
settlers and 40 percent are Papuans. So we still have the West 
Papuan population in remote areas, but in the cities, already 
we are a minority, Mr. Congressman.
    A couple of years ago, at Yale University, where I am part 
of a seminar, a professor right there explained when he visited 
West Papua, in order to recognize the situation in West Papua, 
you don't have to study a long time. You just sit in the 
market, and you will see how the new colonization is taking 
place in West Papua.
    Therefore, Congressman, Papuans have lost faith in the will 
of the Indonesian Government to resolve longstanding 
differences; autocratic rule by the distant official in 
Jakarta, security forces that continue to operate with 
impunity, as well as laws that limit basic political and 
religious freedoms.
    The Papuan Traditional Council, they wants ``our'' Papua. 
It is a political organization representing 250 indigenous West 
Papuans that have recently reiterated the call for the dialogue 
between the Republic of Indonesia and the Papuan people. Such a 
dialogue would only be possible, according to the Papuan 
tradition and culture, which we have the chairman of the Papuan 
customary council, right there. That dialogue should be taking 
place with the international community as a neutral third 
party.
    Last, just this week, Mr. President SBY stated that he 
rejects the special--the dialogue with the Papuans. This is 
what we see as Papuans as a discrimination policy, because the 
same President is willing to dialogue with the Acehnese, but 
why he reject us?
    Mr. Chairman, therefore, we would like to thank you for 
your recent letter to President Obama encouraging him to make 
West Papua one of the highest priorities of the administration.
    We also thank you, to the other 50 Members of the U.S. 
Congress who signed this letter asking the President to meet 
with the people of West Papua during his upcoming trip to 
Indonesia. We sincerely hope that the President will take your 
request to heart.
    Thank you very much.
    [The prepared statement of Mr. Mote follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Faleomavaega. Thank you.
    We are joined this afternoon by one of our distinguished 
colleagues and senior members of the Foreign Affairs Committee, 
my good friend, Congresswoman Sheila Jackson Lee from the great 
State of Texas. I would like to give her this opportunity for 
an opening statement, if she has one.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much. I 
think it will be important for the witnesses to know that the 
chairman was kind enough to make this an open meeting for 
members of the full committee that may not be on the 
subcommittee. Forgive me for not being here at the start of the 
hearing, and I may not be able to stay.
    But I wanted the chairman to know that I consider this of 
such importance that beyond the letter that we have written, I 
would like to join him in whatever his leadership chooses to 
pursue, i.e., an additional letter, as we begin to approach 
2011, to encourage the President to meet on this very important 
issue regarding West Papua and the people, the indigenous 
people of that area.
    My remarks speak to the largeness of human rights. I am 
sympathetic and very knowledgeable of the important role that 
Indonesia plays as a democratic Islamic nation, the largest 
Muslim Nation, the importance of that. We should not take away 
from that.
    But I believe that human life and dignity must also stand 
up against or stand alongside comprehensive peace agreements or 
alliances where we are trying to bolster the relationship 
between an Islamic nation and the United States.
    Frankly, I believe that the United States in its government 
today probably has less to apologize for as relates to the 
Muslim world. We have extended our hand of friendship. I 
believe I am a friend of the Muslim world. I don't believe we 
hold to discrimination, despite the diversity in our country 
that raises their voices sometimes. So I think we are on good 
ground.
    But if there is anything that we have the moral high ground 
to stand on, including our own internal assessment of our own 
beliefs, is the question of human rights and the indigenous 
rights or the rights of people to be sovereign or at least to 
be respected.
    I know there are separatists who become frustrated and 
don't believe that there is a serious commitment to recognizing 
the people. I am particularly concerned because of the pending 
visit of our President focused around the relationship between 
Indonesia and the United States.
    So I really came to add my support to the leadership of 
this very fine chairman, who has brought enormously important 
issues on indigenous people who may not feel they have been 
heard.
    We cannot, and I would pose a question for the record, Mr. 
Chairman, and I know we are not in the questioning timeframe at 
this point, but I think it is important that Mr. Joseph Yun, 
who I believe is here and is deputy assistant to the East Asian 
and Pacific Affairs, and I am not seeing his name, but maybe I 
am ignoring it.
    Mr. Faleomavaega. Will the gentlelady yield? He did testify 
earlier this afternoon, and I will be more than glad to forward 
whatever list of questions you might have for him to respond to 
us for the record. We would be happy to do that.
    Ms. Jackson Lee. Thank you. Then I will articulate the 
question. I don't think the Congress should have to wait until 
the night before the President's visit to get a firm response 
as to whether or not this issue will be an agenda item as he 
goes to meet with the leadership in Indonesia. I.
    Know this very fine chairman probably probed Mr. Yun, 
Secretary Yun, with that same question. I am not sure how 
detailed the answer may have been.
    But this is so important. Indonesia is so distant that we 
should not lose the opportunity to have a very serious 
discussion that involves human rights. Frankly, I believe that 
as we engage with the Muslim world, as we continue to emphasize 
that Islam is a faith, as other faiths are, a faith of 
nonviolence, a faith of charity and love, we can do that and 
work to establish relationships with Indonesia as we ask the 
hard questions about what you are doing about the indigenous 
people who are still asking for their rights as well.
    This is a difficult challenge because, Mr. Chairman, I 
would wonder whether or not we would be able to assess that we 
had the people from this region as our neighbor. When I say 
that, someone would say, oh, yes, there is a family down the 
street. Maybe there is. But it probably is not as much on the 
minds of Americans as it should be. It is the responsibility of 
the United States Congress to do it.
    Let me conclude, because of the chairman's indulgence, to 
be able to just emphasize the issues that I have read in this 
memo. I am tempted and will put on the record that it is 
alleged that potentially this population, West Papua, has 
suffered great injustices and a deprivation at the hand of 
Indonesia, where may some have described it as genocide.
    We were afraid of that word with Sudan. We ran away from 
that word with Sudan. We ran away because we were sensitive to 
wanting to create relationships and continue dialogues. I want 
to create relationships. I want to continue dialogue. But Mr. 
Chairman, I am not willing to create relationships and continue 
dialogue over the dead bodies or the loss of life of a 
population of people.
    I did say this is my last comment, but I am reminded of the 
collaboration of so many Americans, including you, Mr. 
Chairman, being a leader during the tsunami, when many rushed 
to Indonesia and that region, Sri Lanka and other places, 
because we cared about the loss of human life and we wanted to 
be there to aid our friends.
    We just simply ask now that Indonesia, as a pending friend 
and as a friend, join us in answering the questions about the 
military operations and the denial of human rights and the 
potential of a terrible act that may be called genocide.
    And to our President, who I know holds a moral high ground 
on human rights, we are asking that these discussions be 
carried on in any visit by the President of the United States 
to Indonesia as we look forward to cementing our partnership 
and as well recognizing the rights of all people.
    Mr. Chairman, thank you for allowing me to provide an 
opening statement. With that, I yield.
    Mr. Faleomavaega. I thank the gentlelady for her most 
eloquent statement and deep insights in terms of the issues 
confronting the people of West Papua, as well as our ongoing 
relationship with the leaders in the Republic of Indonesia.
    There is no question that the issue poses a lot of 
challenges and a tremendous amount of problems affecting the 
lives and the welfare of the people of West Papua. And it is my 
sincere hope that this hearing is an indicator of the interest 
of Members of Congress. I want to make sure that we will 
continue this dialogue and want to work very closely with the 
leaders of Indonesia to see what we can do to give proper 
assistance to the needs of our Papuan brothers and sisters.
    With that, I thank the gentlelady for her statement. She is 
welcome to ask any questions.
    We just got through with two witnesses testifying, so at 
this time, I would like to ask Mr. Rumbewas for his statement, 
please.

   STATEMENT OF MR. HENKIE RUMBEWAS, INTERNATIONAL ADVOCATE, 
            AUSTRALIA WEST PAPUA ASSOCIATION (AWPA)

    Mr. Rumbewas. Well, allow me to extend my greetings and 
gratitude from the people of West Papua. We are indigenous 
people from Koya, from the people of the mountains, and Jow 
Suba from my people, and Achemo from the head of the birds, to 
you, Mr. Chairman, to Chairman Donald Payne, and to all Members 
of the United States Congress who have supported West Papua. 
With my whole heart, I traveled all the way from West Papua, 
although I have been living in exile in Australia at the 
moment. But the last 6 years, I have been teaching English, and 
I have been witnessing so much.
    Today I would like to say this, as follows: We owe 
particular gratitude to the 50 Members of Congress who signed a 
recent letter about West Papua to the President of the United 
States, Mr. Barack Obama.
    I will start with myself. I was born on September 27, 1956, 
on the island of Biak, where in the Second World War where the 
American base, where more than 12,000 American, Japanese were 
massacred. I was only 7 years old when the Indonesian military 
invaded West Papua in 1962. My father was a health worker at 
the local hospital during the Dutch administration. In the 
middle of night, my father was taken by the Armed Forces and 
sent to prison with many other West Papuans on the island of 
Biak. This was the first nightmare that I experienced in my 
life that I bring with me.
    My father was sent to jail simply because he rejected the 
Dutch Government also. We have to an independent state of 
Melanesian people, and he also rejected the Indonesian 
military, so both the Dutch and Indonesian rule. So from 1963 
up to 1970, I did not live with my father, and my mother 
brought us all up. So those are the emotions I brought with me. 
But it is funny that a year after the Free Act of ``No 
Choice,'' which is 1970, then my father was released.
    Other experience I had, in 1967, one of my close uncles, 
Permenas Awom, looking at the failure that we could not win the 
possibilities of maintaining our land since the Dutch left, he 
started an armed struggle in Manokwari. Permenas was later 
persuaded by Suharto's military government. The Indonesian 
military took him, and he disappeared, and until today, we 
question whereabouts he was.
    In 1969, a younger brother of my uncle Permenas Awom, which 
is Nataniel Awom, was very disappointed with the death of his 
brother Permenas, so he also started an armed struggle in Biak. 
He was also persuaded and surrendered peacefully, but then 
disappeared without any trace. The two uncles that I mentioned 
above are just the examples of many other West Papuans who 
disappeared without any trace.
    Between 1964 and 1967, a cousin and a close friend of 
mine--you might have seen how well I danced this afternoon--
because Arnold Ap, a fellow Papuan who was studying, my Sunday 
school teacher, he was only promoting our culture and our 
language. But the Indonesians saw it as a sign that we maintain 
our Black culture. He was assassinated, burned to death, and 
the body was thrown with other West Papuans along the beach in 
the middle of the town of Jayapura.
    These are the examples I am looking at. So since the death 
of my cousin, and a good friend of mine, and the cousin of 
Arnold Ap, the Catholic Church came to Papua while I was doing 
my English training, teaching and talking about East Timor.
    I am very glad that this afternoon, Mr. Chairman, you 
mentioned about Mr. Mandela in South Africa, but a clearest 
example is that the Democratic leader Mr. Clinton--Mr. Clinton 
look at the case of East Timor, and America supported the 
independence of East Timor. How come, how come the Government 
of the United States could not look at the case of West Papua 
from the same perpetrator, which is the Indonesian Government?
    To the future of West Papuan refugees, I, myself, since 
1984, I decided that I would like to make Australia a second 
home. I am very proud that my Australian friends from the 
Catholic Church took me and sponsored me to go to Australia. 
But whenever I return to Papua, it always hurts me. It always 
hurts me that we are living in poverty, although our country is 
very rich.
    The example that I have given to you, that I lost my uncle, 
he disappear without any trace. But my colleague here, Mr. 
Messet, I myself in 1970, I witnessed that the Indonesian 
military shot dead or assassinated his brother, and I witnessed 
it myself, the brutality of the Indonesian military in our 
country.
    What I could see since the last few years is that the 
Indonesian Government yesterday or a few days ago, when I 
arrived here at the airport, it is a very strong message I got. 
Thank you, Mr. Chairman, of the examples of the terminology 
that they use. Micronesians, Polynesians and Melanesians. When 
I arrived here, the immigration member asked me the meaning--
when you look at the color of my skin, that I am Black, of 
course Australian people are White people. But the good 
question he asked me is, uh-huh, you come from a country which 
is known as Papua where we lost an American, Rockefeller. Was 
he eaten by cannibals? I said, he was not eaten by cannibals, 
but he was probably eaten by the crocodiles, because that is a 
swampy area that he fished in.
    But I remember that our dignity is being played around, 
like a very famous--not Martin Luther King, but what you call 
in this country Malcolm X--that the negativity that the 
Indonesians have toward us, the black color is always nothing 
but negativity. And, therefore, I like to--I am very proud of 
you, Mr. Chairman. I am sorry that I bring my emotion to you, 
but these are the feelings I carry.
    I brought to you to represent the people of West Papua 
because I live as a citizen of Australia. I have gained 
everything. But at the moment we have more than 12,000 refugees 
in Papua New Guinea, but we were called as border crossers. But 
in the future I would like to see if Australians can take 
migrants from internal war of Sri Lanka or any other internal 
wars in Asia. I like to see if Australia--because I am a 
citizen of Australia, I would like to see the Australian 
Government take some of our refugees, instead of being called 
border crossers. And also in America, hopefully we can have the 
United States of America accept some of our people who live 
with stateless status in Papua New Guinea.
    Thank you, Mr. Chairman, and this is all I like to bring to 
you today. Thank you.
    [The prepared statement of Mr. Rumbewas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Faleomavaega. I thank the gentleman for his statement. 
You had mentioned something about stereotyping and a story 
going around that Mr. Rockefeller was eaten by the Papuans. And 
you had said earlier that, no, he wasn't eaten by the Papuans; 
he was eaten by the crocodiles. I never could differentiate 
between crocodiles and alligators.
    But we have our own little story about people eating other 
people. This is about Captain Cook, the famous British captain 
who came to our islands. He was visiting the islands of our 
cousins, the Tongans, and unbeknownst to Captain Cook, of 
course, he left, and he gave a real grand name to the Tongans. 
He named the islands the Friendly Islands of Tonga. Little did 
he know, if he had stayed just a little longer, the Tongans 
were going to kill him. Of course, then he came to Hawaii.
    And another interesting story is about people being 
introduced as to what great things their people did. And this 
fellow was from Samoa. ``Oh, I am from so and so. We built the 
Empire State Building. I am from so and so.'' So when it came 
to him, he was asked about what famous thing his people 
claimed. ``We ate Captain Cook,'' he said.
    The gist of my story, Mr. Rumbewas, when the Hawaiians saw 
Captain Cook, they thought that he was the great god Lono who 
had come just at the right time for a festival. They treated 
him almost like a god. And then in one of the skirmishes, one 
of the Hawaiian chiefs stole some nails or a bolt, which they 
fought over. And Captain Cook was in the mix. And what happened 
was that one of the native Hawaiian chiefs struck him, and to 
the amazement of the Hawaiian chiefs, he groaned. And in the 
tradition of the Hawaiians, gods are not supposed to groan. So 
he must not be a god. He must be human. So they killed him 
instantly.
    So that is our story of who ate Captain Cook and who ate 
Mr. Rockefeller. We have all kinds of stories. So I can 
identify with your statement about sometimes the negative 
stereotyping which puts us in a very difficult situation.
    Mr. Messet, please.
    Mr. Messet. Chairman, that was a very exciting story about 
this Mr. Cook. I want to ask you, was he cooked before being 
eaten? Or was he eaten alive by crocodiles? Captain Cook, the 
name is ``Cook.''
    Mr. Faleomavaega. Well, Captain Cook, we have no crocodiles 
in our islands, and when they killed him, they have a special 
ritual for high chiefs, and they considered him a high chief. 
So according to Hawaiian tradition, what they do, they 
literally cooked him, stripped the meat, the body from the 
bones, either fed him to the dogs or whatever. But then the 
bones were kept as a token since he was a high chief, but he 
wasn't a god. That is the story of Captain Cook.
    I might also note the fact that he was known for being a 
great navigator when, in fact, it was a Tahitian chief by the 
name of Tupaia who told Captain Cook where some 80 islands were 
located throughout the Pacific. So Captain Cook took him on his 
voyages that went to the Pacific. And when he came to New 
Zealand, my Maori cousins thought that the Tahitian chief was 
the head of the delegation, and not Captain Cook.
    So we have our own set of stories in relation to Mr. 
Rumbewas'.
    So to your question, sir, he literally was cooked.

      STATEMENT OF MR. NICHOLAS SIMEONE MESSET, WEST PAPUA

    Mr. Messet. Chairman, thank you very much. Members of the 
subcommittee, ladies and gentlemen, first of all, thank you for 
this opportunity to testify before you on the issue of Papua, 
my home and the place where I was born and raised. I know you 
will hear many views today. The views I am about to say come 
from my own life experience with human rights issues and 
political developments in Papua. They come from my heart. I 
have been on the outside and on the inside, and I think I have 
a better view now.
    Chairman, let me be clear on where I came from. I was very 
critical and opposed to the Indonesian Government on the issue 
of Papua. Papua has had a very difficult history. It is the 
most beautiful place on the planet, but also a place where the 
people suffered from Dutch colonialism and Indonesian 
authoritarianism. There were injustices there, just like there 
were injustices all over Indonesia. There were conflicts there, 
and there were human rights violations, which also affected 
members of my family.
    But after many years of struggle and hardship, I realized 
that I can only cry for so long. No amount of tears can bring 
back the past. More importantly, I came to realize that the 
best solution is special autonomy. The special autonomy is the 
solution that is endorsed by the world community. This is the 
solution. This is most practical, good for Jakarta, good for 
the Papuans. This is the solution. This is best for the 
Papuans. I really hope and believe that this solution would 
bring political, economic and social empowerment for the 
Papuans. It is a just and fair solution, and it will finally 
allow Papuans to come to terms with our future.
    There is now a light of hope for Papuans. We can breathe 
the air of freedom. We can choose our own leaders. We can 
control and spend our own spending. We can write our own 
future. The more democratic Papua becomes, and the more 
development we get, the more we can resolve social and 
political tensions in Papua. As a Papuan, I really feel that we 
are now opening a new beginning. We no longer feel sidelined, 
but we are in control of our own destiny. I know my fellow 
Indonesians also feel like this.
    I have come here because I share your concern of human 
rights. Believe me, I have experienced this problem firsthand. 
There is still tension in Papua. The underlying conflict has 
not gone away, and there can be no bright future, no peaceful 
Papua unless respect for human rights is part of that future. I 
do not know how long this tension will go on, but I do ask you 
not to make the tensions worse, because when things get worse 
in Papua, you stay here in your comfort, and we suffer. You 
have to help to give them more hope, the right hope, not the 
false hope. It is the hope of unity, reconciliation, freedom, 
and development.
    You cannot understand Papua if you only look and hear only 
one side, and you cannot help us if you impose your views on 
us. We Papuans are not political commodity. I have returned to 
Papua, but Mr. Rumbewas remains to stay in Australia. I have 
been living in Sweden, the most wealthy country in the world 
and not America, Sweden is my asylum country, but I have to 
leave that beautiful country. I have to go. My daughter said to 
me, Dad, you are a madman. Why you took us from the darkness 
and brought us to the light and now you want to go back to the 
darkness? I said, ``That is your philosophy, my daughter.'' I 
want to take that light back to the Papuans where they can see 
the light, too. That is my daughter's philosophy.
    It is better for me to struggle from the inside as part of 
this process rather than to fight from the outside with no 
result. I will keep pushing them to meet the commitment to 
protect their rights and the interests of my people. And 
because of special autonomy, I also keep pushing the elected 
Papuan leaders to do more for our people.
    I have no doubt whether the Indonesian Government was 
serious about human rights, but I changed my mind during the 
case of Theys Hiyo Eluay's murder. The military officers who 
were found to be the masterminds in executing him were 
sentenced accordingly by the court. The military now is also 
restrained, unlike before, and I have not heard of major human 
rights violations recently. In fact, there is a growing trend 
of former OPM figures who have abandoned their cause and 
rejoined the new Papuan democracy, including me.
    Papua still has a very long way to go, Chairman. I do not 
have any delusions about the magnitude of our problems, but we 
cannot be stuck with the past. Otherwise, we are imprisoned by 
our fears. I really want the United States Congress to help 
Papuans improve their lives with more education, more jobs. I 
also hope Papua will be more open to the outside world. But 
this has to be lead not to more conflict, but to more peace, 
Chairman.
    I appreciate the attention of the United States Congress on 
the issue of Papua. I hope you do not send the wrong message to 
Indonesia and Papua. Do not undermine the goodwill that is now 
being developed. Help us preserve and improve our human rights 
that is now happening. Help us promote unity and 
reconciliation.
    In conclusion, Chairman, I, on behalf of the IGSSARPRI 
Foundation, as an independent and privately funded group 
dedicated to collaborating with all institutions and 
individuals wherever they may be, including the Government of 
Indonesia, to creating a just, peaceful, and prosperous society 
in the nation of Indonesia, inclusive of Papua, wishes to 
strongly make the following three-part recommendation on this 
historic occasion: Number one, that the United States House of 
Representatives and the United States administration under the 
leadership of President Barack Hussein Obama, as a matter of 
regional and international strategic priority, reaffirm and 
strengthen the Comprehensive Partnership Arrangement between 
the United States and the Republic of Indonesia without further 
delay.
    And number two, that in the future, where necessary, 
important issue relating to human rights and environmental 
concerns affecting Papua, as well as political, social and 
economic empowerment considerations intended for the people of 
the autonomous region be appropriately addressed strictly 
within the spirit of the Comprehensive Partnership Agreement 
between the two nations.
    And thirdly, that care must at all times be exercised 
whilst in the pursuit of the objectives of the Comprehensive 
Partnership Arrangement between the two nations and not allow 
any party to act in a manner that is liable to inflict 
unnecessary discomfort and anxiety upon the people of the 
autonomous region of Papua.
    Mr. Chairman, I am very grateful to be here to testify. 
Thank you, God. I am pleased to hear that. As well, Chairman, I 
am a Papuan, and I will still be a Papuan, but in Indonesia, 
they call it Mel-Indo, Melanesia/Indonesia. Thank you.
    [The prepared statement of Mr. Messet follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Faleomavaega. Thank you. Mr. Yumame.

 STATEMENT OF MR. SALAMON MAURITS YUMAME, HEAD OF FORDEM (THE 
                       DEMOCRATIC FORUM)

    Mr. Yumame. Mr. Chairman, it is a great pleasure for me to 
speak before you. I speak on behalf of Papuan peoples. We 
Papuan people, our basic human rights have been denied for 41 
years. When in 1969, we had been forced to become Indonesian by 
the ``Act of No Choice,'' the act of manipulated choice.
    Through these fairly important things, I want to thank you 
for this meeting. It is very crucial to attend this testimony 
so that you can tell everybody what we are facing now in West 
Papua, that our people in West Papua today are in the verge on 
extinctions if there is no immediate and brave action to 
prevent it.
    Yesterday when I am in the military airplane when I flew 
from Jakarta to New York, I saw a brief film of Mr. Obama when 
he is trying to--his campaign for the President. He has 
promised the American people that we bring change. We believe 
this change can give a better life for us, for American people, 
and I feel that America has the capability--the American people 
has the ability to serve the improvement of our life, change in 
our Papuan life.
    Mr. Chairman, the title of my testimony is ``The Failure of 
Special Testimony in West Papua: A Journey from Heaven to 
Hell.'' Today there are ongoing social conflict in West Papua 
and has led to violation of human rights in Papua. Basically 
there are three root causes of this conflict. First, it is the 
political status quo of West Papua. Secondly is security 
approach and human rights violation. And third is lack of 
political commitment from the Government of Indonesia to 
develop the Papuan people. They only just have our natural 
resources. But the lack of commitment to develop our Papuan 
people.
    Special autonomy policies is an alternative policy by the 
Indonesian Government for the people of Papua in 2001, after a 
team of 100 people met with Indonesian President B.J. Habibie 
to request for an Independent State of West Papua. After 
implementation for almost 10 years, special autonomous policies 
considered by most Papuan people that it does not become 
prosperous policy, but, on the contrary, it has marginalized 
Papua people and let them bound deeper in the cycle of 
structural poverty.
    Human rights violations continue to occur, and massive dead 
of Papuan people population cause of poor health condition is 
HIV/AID pandemic. The threat of death from various causes can 
lead the nation in Papua face the threat of extinction.
    The important causes are considered as the cause of the 
failure of the implementation of Papua--of special autonomy of 
Papua are, firstly, local government paralyze; secondly, divide 
and conquer policy among Papuan people. The Indonesian gives 
policy of ending the--against us in Papua area; third, massive 
influx of migrant led to Papua population disaster. Papua 
become minority in their homeland; fourth, the discrimination 
in economic disparity. The Papua population has been 
marginalized in the economic circle in the homeland; five, 
massive exploitation of natural resources without counting 
Papua people interest; and six, silent genocide policy 
implemented by the Indonesian Government; and seventhly, human 
rights violation by military and police over there.
    As an intellectual, this worsening situation of most of 
Papuan people, we organize a forum we call United Democratic 
Papuan People Forum. We initiate and organize a new nonviolence 
strategy. We have been working together with all Papuan 
community, community-based organizations. Some of those 
community leaders are with me today. They have come with me, 
and they use the hat like this.
    Since March 2010, we have been actively working hard to set 
up awareness of our Papuan identity and dignity, which has been 
destroyed by Indonesian Government. Since then we have 
approached various group of community, mainly youth and women 
and well-educated Papuans from high school to higher institute. 
Besides that, we provide written information and distribute it 
to Papuan people from door to door.
    We have also successfully organized more than six peaceful 
public demonstration, participated by more than 20,000 people. 
Most of them are youth and women. We have been working closely 
with Papuan People Assembly to hold Papuan People General 
Assembly on 9 and 10 June, 2010, in Jayapura. In this Congress, 
we, together with representative of Papuan people, have carried 
out evaluation of implementation of Special Autonomy in Papua 
Province. Finally, we have concluded that special autonomy 
policy has failed to bring welfare for Papuan people.
    As the consequences of the failure of special autonomy 
policy, Papuan people reject the continuation of the 
implementation of special autonomy, and urge the Indonesian 
Government to seek special way for implementing referendum as 
the final solution for Papuan people to exercise the right for 
self-determination.
    The decision of Papuan People Congress and decree of Papuan 
People Assembly No. 2, 12 of June, I attach with my testimony.
    Amid the decision of Congress Papua, FORDEM successfully 
organized a huge public demonstration and marching along 20 
miles, with an estimated participation more than 10,000 people 
spent the night at the Parliament House in Jayapura. During 
this public demonstration, the police commander threatened to 
use violence to dispel the demonstration. We believe that 
through peaceful and nonviolent strategy, we will gain 
international attention and support.
    With regard to the failure of special autonomy, which has 
brought human right abuse in Papua since 41 years under 
Indonesian authoritarian rule, I urge and propose to the 
committee as follows: One, to uphold the protection of human 
right in the world, including the human rights of the West 
Papuan people, and to request the Government of Indonesia to 
open a humane and acceptable dialogue for a fresh referendum to 
replace the special autonomy policy.
    Second, the U.S. Government should stop military support 
for Indonesian Government as many of the human right abuse in 
Papua still committed by military and police force.
    Third, to put the pressure on Indonesian Government to 
allow international NGO, researchers and journalists to visit 
and work in Papua.
    Four, we hope that American Government can have and can 
consider to have a permanent consulate or U.S. Government 
representatives to be in Papua in order to monitor the human 
rights abuse in Papua.
    Mr. Chairman, I had three PowerPoint presentations I want 
to show you the situation about our suppression in Papua, if 
you don't mind.
    Mr. Faleomavaega. Mr. Yumame, we still have two other 
witnesses who haven't testified. I think you have pretty much 
just outlined what you said orally. I don't think we need to go 
through your PowerPoints at this point in time, but they will 
be made a part of the record. Okay?
    Mr. Yumame. Okay. Thank you.
    [The prepared statement of Mr. Yumane follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Faleomavaega. Thank you. Dr. Kirksey.

    STATEMENT OF S. EBEN KIRKSEY, PH.D., VISITING ASSISTANT 
PROFESSOR, THE GRADUATE CENTER, THE CITY UNIVERSITY OF NEW YORK

    Mr. Kirksey. Mr. Chairman, I would like to thank you for 
your leadership. It has been really consistent. And I see it is 
a real heartfelt thing, and it is a struggle that I share with 
you.
    I didn't start out as a human rights activist. I went to 
West Papua in 1998 with a grant from the U.S. Indonesia 
Society. I basically wanted to study food. I wanted to study 
how indigenous communities subsist and survive amidst changing 
environmental circumstances. Weeks after I got there, I saw two 
fellow students get shot. I was at the University of 
Cenderawasih. That is the main government university in 
Jayapura. Steven Suripatti, a law student, was shot in the 
head. Corina Onim, a young woman, she was in high school, she 
was shot in the leg.
    I tried to get out of Jayapura. I went to Biak, and over 
the course of 3 days, I was trapped in a hotel while a massacre 
took place. Basically a group of protesters was surrounded at 
dawn. There were Indonesian police there. There were military 
people. There were Navy troops involved. They surrounded 
protesters who were peacefully sleeping under the Morning Star 
flag, and they started shooting into the crowd.
    Let me read what one of the eyewitnesses, one of the 
survivors told me. This eyewitness saw a truck that took the 
bodies of the dead and the dying away from this crime scene:

        ``I counted 15 people in the first load. The truck came 
        a second time and I counted 17 people inside. When they 
        opened up the truck bed I could see lots of blood, in 
        that small truck there was lots of blood.''

    In that initial attack there were about 29 people killed, 
according to human rights reports. The survivors of that 
initial attack, living people, were loaded onto Navy ships. I 
could see those ships from the hotel where I was trapped. We 
don't know exactly how many people were on those ships. What we 
do know is that in the coming weeks, 32 decaying bodies washed 
onto the shore.
    I am going to be meeting with Mr. Scher later this week. We 
are going to help him fill in some of those numbers. We are 
coming up with more and more accurate numbers of how many 
Papuans have been killed. Rather than go through those numbers 
today, I would just like to show a single picture. This picture 
is of a bag. It is floating in the ocean. In that bag is a 
body. It was a 32-year-old health worker named Wellem Korwam. 
He was executed by police forces. And, Mr. Chairman, I am not 
going to show the pictures in this envelope today. I am going 
to offer them to you. At your discretion, you can put them in 
the record.
    These pictures in this envelope here show what happened 
after that bag was opened up. Basically the next picture in the 
series shows a man with plastic gloves. He is arranging a torso 
in a coffin. You can see white, black, and pink organs inside 
of the torso. The next picture is a jumble of seven different 
body parts; two legs, two arms, a head and a torso, two other 
pieces of the body's trunk. The mouth of this body, the mouth 
of Wellem Korwam, someone who was a living human being, is 
distorted in these pictures. It is opened in a yawn. His eyes 
have turned whitish green. They are staring unfocused. The nose 
and the arms and the ears are all gone. Those pictures are in 
this envelope.
    The Rome Statute gives us a global framework for 
prosecuting violators of human rights when they enjoy impunity 
in their home country. I disagree with Mr. Scher. I think there 
is a very systematic and deliberate pattern taking place. 
People who harbor nationalist sentiments are targeted, they are 
killed, they are jailed. Amnesty International has a prisoner 
of conscience, Filep Karma, who is in jail for a 15-year jail 
sentence for simply raising a flag.
    Mr. Chairman, when U.S. citizens are killed, we can bring 
the perpetrators of those crimes to our courts. I am offering a 
33-page article published in a peer-reviewed journal about two 
U.S. citizens, two schoolteachers, who were killed in Timika. I 
reviewed the evidence in this article that Indonesian soldiers 
participated in the shooting and killing of these Americans. 
The Indonesian courtroom that tried this crime sentenced 
Antonius Wamang and a couple of other Papuan accomplices. 
Wamang got life. The other guys got a few years. Wamang pled 
guilty to this crime, but it is very, very clear from the 
evidence that I have that he was not acting alone. The 
mastermind is at large. Mr. Wamang should be brought to a U.S. 
courtroom to be tried.
    I would also like to repeat a recommendation that Mr. 
Yumame made. In the moment after Wamang was sentenced, this 
person who had pled guilty to killing Americans, for several 
years, U.S. military aid was held up on the outcome of this 
case. But after Wamang was sentenced to life in prison, the 
Bush administration signaled a new era of military cooperation 
with Indonesia. Right now we have millions of U.S. taxpayer 
dollars going to foreign military financing as well as 
international education training, IMED, for Indonesia's 
security forces. These are U.S. taxpayer dollars funding this. 
There are currently no legislative restrictions on purchases of 
U.S. military equipment by Indonesia.
    Mr. Chairman, Indonesia's track record speaks for itself. 
The question I have for the administration is does the 
Democratic Party really want to continue associating with these 
human rights abusers? In my personal opinion, I think military 
aid from the United States to Indonesia should be cut off. If 
the Appropriations Committee decides to keep these programs in 
place, very real conditions and clear benchmarks should be 
established. The Indonesian Police, military and Navy should 
receive no more funding from the U.S. Government until the 
murderers of Wellem Korwam are brought to justice. They should 
receive no U.S. funds until Indonesian officials let forensic 
pathologists exhume the mass graves on Biak.
    Mr. Chairman, thank you for holding this historic hearing. 
With your continued leadership, the U.S. Government will play a 
role in ending Indonesian military impunity in West Papua.
    [The prepared statement of Mr. Kirksey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Faleomavaega. Thank you. Dr. Richardson.

STATEMENT OF SOPHIE RICHARDSON, PH.D., ASIA ADVOCACY DIRECTOR, 
                       HUMAN RIGHTS WATCH

    Ms. Richardson. Thank you, Mr. Chairman. I will do my best 
to be succinct. But thank you very much for having this 
hearing. I think your leadership on this issue gives people 
hope.
    Human Rights Watch takes no position on the claims to self-
determination in Indonesia or in any other country; however, 
consistent with international law, we take a very strong 
position on the right of all individuals, including peaceful 
independence supporters, to express their political views 
peacefully without fear of arrest or other forms of reprisal. 
And we have long expressed concerns about ongoing abuses by the 
security forces in Papua and the lack of accountability for 
those abuses.
    Since 2007 alone, we have written four reports about abuses 
in Papua. There are copies here, and I would like to ask that 
they be made part of the record. Those detail abuses ranging 
from severe restrictions on the freedoms of expression, 
assembly and association to extrajudicial killings, tortures 
and rape. Many of those abuses were carried out by members of 
the security forces, including Brimob, Kostrad and Kopassus.
    You asked the earlier witnesses about what they thought 
contributes to some of the frustrations of people in Papua, and 
I think it is imperative that we spend a few minutes talking 
about impunity. I think it is very difficult to get people to 
buy into any sort of governing regime when they feel that the 
terrible abuses that they have suffered will go uninvestigated. 
And that has very much been the case not just in Papua, but 
across Indonesia.
    In July 2010, shortly after Secretary Gates left Jakarta, 
the TNI chief Djoko Santoso was quoted saying that as far as 
the TNI is concerned, the issue of past human rights violations 
is over.
    As long as people are not prosecuted for human rights 
abuses, they are not over. Impunity itself is a human rights 
abuse. And while many people either in Washington or in Jakarta 
may want us to believe that the TNI or other security forces in 
Indonesia do not carry out abuses on the scale that they once 
did, the fact that there is near total impunity for abuses in 
the past and now, and now--this is not in the past, this is 
now--is an extremely serious problem.
    I want to share with you just a few examples both from 
Papua and elsewhere. The failures to investigate and prosecute, 
for example, the cases of civilians abused by Kopassus forces 
in Merauke in 2008 and 2009; the case of Yawan Wayeni in August 
2009, who was taunted by members of the security forces as he 
laid dying; the cases of 13 activists who were disappeared in 
1997 and 1998; and, of course, the case of Munir for which no 
one has ever really successfully been prosecuted.
    We have also documented extremely light sentences given to 
members of the military who were actually prosecuted and 
convicted for human rights abuses. We continue to see ongoing 
promotions for service within the military of people who are 
both credibly alleged and who have been convicted of human 
rights abuses.
    Here I find it a little bit difficult to accept the 
characterization of the removal of TNI from politics when the 
new Deputy Defense Minister is, in fact, a Kopassus officer who 
has a somewhat checkered past.
    We also see tremendous resistance to parliamentary 
oversight for impunity. We have not seen the kinds of 
commissions, the ad hoc court requested by the DPI to look into 
the disappearances of the students, nor have we seen movement 
on a bill that would give jurisdiction over the prosecution for 
abuses committed by members of the military of civilians into 
civilian courts.
    I think the argument often goes that somehow accountability 
and justice are inimical to peace. We couldn't disagree with 
that more. And, in fact, my organization has done extensive 
research to show that accountability is crucial to long-term 
peace settlements and their stability. In that spirit, I would 
make the following recommendations, particularly to the 
Indonesian Government, that it immediately and unconditionally 
release all of the persons who are held for peaceful expression 
of their political views, particularly those we have written 
about in Papua; to amend or repeal all articles and regulations 
that criminalize forms of expression; to promptly respond to 
credible reports of torture in custody--this is also a very 
serious problem we have written about in Papua; and to remove 
arbitrary restrictions on access to all regions of Papua.
    To the U.S. Government, which we believe seriously 
undermined standards for military cooperation and 
accountability globally when it resumed ties to Kopassus, the 
U.S. should first recondition assistance to the Indonesian 
military and police on strict standards of accountability for 
current and past abuses. It should also push for the amendment 
or repeal of Indonesian laws that allow for the imprisonment of 
individuals for peaceful political expression, and the release 
of those imprisoned. And last but not least, it should push for 
the passage of Indonesian laws that shift prosecution of 
soldiers who have abused civilians into civilian courts.
    Thank you.
    [The prepared statement of Ms. Richardson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Faleomavaega. This has been a long afternoon, ladies 
and gentlemen, and it has not been very easy. I sense that 
there seems to be a difference of opinion about the current 
status of Papua and its relationship to Indonesia.
    Mr. Mote, you indicated that you feel that special autonomy 
status has failed. And I hear from Mr. Messet that he feels 
that special autonomy should still be on the books, or on the 
table, and that every effort should be made with the Indonesian 
Government to continue the process.
    So I would like to ask Mr. Mote, since you said that 
special autonomy has failed, what do you propose in place of 
that?
    Mr. Mote. Thank you, Mr. Chairman.
    The conclusion that the special autonomy has failed is 
really based not just people's experience as Papua People's 
Council or Papua Consultative Council, but this is based on a 
review that the Cenderawasih University has conducted. And 
President Yudhoyono just stated that he will reevaluate it.
    But the problem is, it is simple. On one hand, the 
President is promising and promising; but on the other hand, at 
the same time, the law, the military is conducting their 
nightmares to the Papuans. And the People Assembly, for 
instance----
    Mr. Faleomavaega. No, Mr. Mote, my question is--you have 
made the statement that special autonomy has failed. What do 
you propose in exchange for that?
    Mr. Mote. Oh, thank you, Mr. Chairman. My proposal, wishes 
in line with the people of Papua, they call for a dialogue, and 
the dialogue that they are calling for is the dialogue that is 
facilitated by a third party.
    Mr. Faleomavaega. Mr. Messet, as you know, months ago when 
I was in Jakarta, we had a very, very--what I thought was a 
very meaningful meeting, especially with one of the senior 
elders, Mr. Nicholas Jouwe. I am sure that all of you have had 
communications in your relationship with Mr. Jouwe. What is 
your assessment of the situation among the leaders? Because I 
am getting mixed signals here now. I mean, do you honestly 
believe that President SBY is making every effort to implement 
the provisions of special autonomy?
    Mr. Messet. Chairman, President SBY is a very honest man, I 
can tell you now. We have met in Jakarta on the second of April 
of this year. A lengthy discussion has been mostly about 
developments in Papua, how Americans involve themselves, how 
the American authority can ask the Indonesian Government about 
the special autonomy. That is why the three recommendations 
that I made here is for your Congress to consider and the 
United States administration to consider.
    Special autonomy doesn't work, because we, the Papuans, we 
ourselves, have to reclaim ourselves, not Jakarta. Our leaders 
from the Governor, lord mayors, they are the one that you see. 
The money doesn't--they don't go down to the grassroots. When 
there are injections of, tomorrow will be independence, that is 
why everyone wants to say, oh, yeah, tomorrow if we get 
independence, we will be better than living with Indonesia. But 
if tomorrow we get independence----
    Mr. Faleomavaega. Is your mic on? Something is wrong with 
the PA system here. Even my mic is not on.
    Mr. Messet. Mr. Chairman, I think dialogue can be done to 
revise what autonomy has failed in Papua so we Papuans can talk 
with the central government about what we want, because 
autonomy, special autonomy, is a new thing to Indonesia. It is 
a new thing to implement only in Papua, Chairman. So this 
means, trouble with this is how to run it. An enormous amount 
of money has been given to the indigenous Papuans--not me, Mr. 
Chairman.
    Mr. Kirksey. If I might jump in, Mr. Chairman.
    Mr. Faleomavaega. I want to ask Yumame, because you have 
also expressed a similar concern that you feel this autonomy 
has failed, what is your option? If you feel that special 
autonomy has failed, what do you suggest that the Papuan people 
do?
    Mr. Yumame. Thank you.
    Most of Papuan people, we cannot believe in the missing 
government anymore. They say what you--like good saying, but 
they have done contrary.
    Mr. Faleomavaega. No. My question, Yumame, is what do you 
propose?
    Mr. Yumame. Yes. I propose as many Papuan people want. They 
want ask to determine ourselves. We still stay in Indonesia, or 
we make our own state. All the Papuan people live like that, so 
they see there is no hope in special autonomy. They want to--
any other solution, give the chance to Papuan, their choice, 
which kind of government they want. They want to stay in 
Indonesia, they won't make the step. For example, unity with 
the United States.
    Mr. Faleomavaega. Dr. Kirksey?
    Mr. Kirksey. Sir, I know that Mr. Yumame has submitted some 
remarkable documents for the record, basically a signed 
statement by very senior leadership reflecting the outcome of a 
Congress that involved thousands and thousands of people. It 
was a unanimous consultation. I think there were two 
dissensions, but everyone said special autonomy has failed. I 
think the reason----
    Mr. Faleomavaega. I want to follow up on what you just 
said. Was there a summit?
    Mr. Kirksey. Yes.
    Mr. Faleomavaega. Was there a meeting of all the top 
leaders among the Papuan people?
    Mr. Kirksey. Yes. There was a very large summit.
    Mr. Faleomavaega. When was this done?
    Mr. Kirksey. This was in July of this year.
    Mr. Faleomavaega. 2 months ago?
    Mr. Kirksey. Yes. What is really significant about that 
summit is that a lot of the drafters of the legislation were 
the participants. So the very people who wrote this law are 
saying, ``This is no longer working. We need to do something 
new.''
    One of the flaws in the legislation as it was passed by the 
Indonesian Government is that it rejected some earlier 
provisions to put the Indonesian military under the control of 
local and regional civilian elected leaders. Right now there is 
still this shadow power structure. The Indonesian military and 
police operate with complete impunity. They are off civilian 
budgets.
    Mr. Faleomavaega. Well, that is how Suharto had been 
operating for some 30 years, with a shadow military presence 
and all the different councils. Not just in West Papua, but it 
was also true throughout Indonesia.
    Mr. Kirksey. Exactly.
    Mr. Faleomavaega. So there is nothing new in that respect. 
The bottom line basically is to make sure that he has control 
of the situation.
    Mr. Kirksey. Exactly.
    Mr. Faleomavaega. So this summit that was held in July 
concluded that the special autonomy is no longer viable? Now 
what do you propose?
    Mr. Kirksey. Actually in those documents there is a series 
of recommendations that that summit made, and I don't know if 
you have those at hand now, but they are in the record. There 
is a series of recommendations.
    Mr. Faleomavaega. Well, what are they? Give us two or three 
of the most important recommendations.
    Mr. Yumame. Yes. We have 11 recommendations. Firstly, we 
reject the continuation of special autonomy law because we 
think that it will destroy our dignity and extincts our Papuan 
people in our homeland.
    Mr. Faleomavaega. What does Governor Suebu say about that?
    Mr. Yumame. We have invited him. He attended our meeting, 
the Papua people meeting.
    Mr. Faleomavaega. What about the other Governor?
    Mr. Yumame. We have given our decision to the Suebu 
government, to the People Representative Assembly, to the SBY 
government. Now they are thinking about it, and they think they 
want to give evaluation to the special autonomy. They want to--
the use of the autonomy has been use for good things or not.
    Mr. Faleomavaega. Let me ask you this. It is my 
understanding that Governor Suebu and the other Governor are 
the two highest elected officials among the Papuan people. Now, 
how much credence is given to these two elected Governors in 
terms of their relationship as elected officials of the Papuan 
people?
    Mr. Yumame. Okay. Now we all--most Papuan people, we don't 
believe about the government, because we see they leave us 
under the Indonesian operation system that did not give them 
the chance to formulate strategy for development Papuan people. 
Those best on Papuan----
    Mr. Faleomavaega. I am being the devil's advocate here. 
These two gentlemen were elected by the Papuan people. And, of 
course, as you know, in a democracy, if you feel that these 
gentlemen are not doing the will of the people, isn't there a 
process among the two provinces to recall or make an effort to 
get rid of them if they are not doing properly their leadership 
role in being the two highest elected officials among the 
Papuans?
    Mr. Yumame. Maybe I going to tell you that election system 
in Indonesia is not--our choice with our hat. Now they are 
bravely to the people, so we have to choice the men that can 
give more money, not they----
    Mr. Faleomavaega. Well, you know, I am sure that Governor 
Suebu--who is the other Governor?
    Mr. Rumbewas. Abraham Atururi.
    Mr. Faleomavaega. This is critical because we need to 
understand this a little better, because in understanding that 
these are the two highest elected officials among the Papuan 
people, that was the will of the people being expressed. Now 
are you saying that you don't want special autonomy, that these 
two elected officials don't represent your interests anymore? 
Well, then how does this work within your provincial 
governments if these two need to be recalled by way of having 
an election to get rid of them, if that is what you wish?
    Mr. Rumbewas.
    Mr. Rumbewas. Right. Mr. Chairman, I know Mr. Abraham 
Atururi. I used to be an interpreter for him. But he is a 
former general from the army, from the navy. He is one of the 
leading Papuans, including--they have very good records of 
working together with Indonesian Government to invade East 
Timor.
    So basically, yes, we would like to have our own leaders, 
our Melanesian leaders, to lead us, but they are just remote 
controllers. They are controlled by the Indonesian central 
government.
    I just visited recently the province of Aceh. But the good 
thing I noticed in Aceh and also in New Caledonia, you 
mentioned this morning about Mr. Chubau. I wish if the 
Indonesian Government could give us a chance, as a matter of 
fact, on the decision of 14, we are not allowed to have a full, 
although we are only some kind of--some symbolic leadership. We 
are refused to do that.
    Mr. Faleomavaega. Don't bring East Timor into this 
situation. I don't think it is fair to Mr. Numberi. I know Mr. 
Numberi. He is a member of the President's cabinet, highly 
respected, and he has his own point of view, and was former 
Governor of West Papua. And as I recall, one of the big 
problems that we have in Papua is the corruption, even among 
the Papuan leaders and members.
    So I just want to kind of make sure that the record is 
clear. What I wanted to just get from you is whether you are 
saying that you have serious problems with special autonomy 
that I have always advocated and I have always believed in. 
Because that was the consensus that I got from the Papuan 
people and leaders--that they want to continue working to 
implement special autonomy. And I feel that if these basic 
essential elements are within the implementation of special 
autonomy, your civil rights, being treated fairly, the military 
not harassing you, or Kopassus or whatever, that you have an 
opportunity to make your own decisions. And one of them--and 
correct me if I am wrong--is the fact that you have elected 
your own Governors. They are not selected by Jakarta. It was by 
vote of the Papuan people that Governors Suebu and Atururi were 
duly elected as officials of the two provinces. Now, if you 
feel that that is now highly questionable in terms of their 
leadership, then it is up to the Papuan people themselves who 
are going to have to do that, not Jakarta.
    Mr. Mote.
    Mr. Mote. Thank you, Mr. Chairman. The problem with the two 
Governors is that, in one hand, they are representatives of 
Jakarta, and then also they are representative of West Papuans 
people who elect them. I have two personal stories about the 
Governor Suebu, where he trying to defend his people and many 
time he get a threat. He was even--cannot leave country because 
he was about to put in a travel ban. That happened just right 
after he was--come back from Mexico as Ambassador. And he try, 
Mr. Chairman, try to defend his people. But Jakarta, they 
didn't listen to him what he trying to defend. So in front of 
our people of West Papua, he seems like a powerless Governor 
because he cannot fight on behalf of them. And one other 
example, Mr. Chairman, which has just happened this month. 
There is a project in Merauke, it is called MIFEE project. It 
was proposed by----
    Mr. Faleomavaega. Mr. Mote, I don't want to interrupt you, 
but I am not here to point the finger or pass judgment on Mr. 
Suebu's capacity or whatever may have been his conduct. As I 
have said, this is really a local issue among the Papuans 
themselves and I don't want to suggest that we are here to put 
out dirty laundry, all the bad things about your own leaders 
that you elected.
    Mr. Mote. Mr. Chairman----
    Mr. Faleomavaega. Wait, wait. I am not through yet. So I 
just want to make sure that, in fairness to your elected 
leaders, you understand that this is very, very important and 
elementary in American democracy. You elect someone, even if he 
is a son of whomever. But he is the elected person. And there 
is a recourse and a process so that if he is not worthy of that 
position or that office, then that is something that the Papuan 
people themselves are going to have to work within the system 
to find someone else to be your Governor. I think we are moving 
astray from the line of questioning that I have. If not, 
special autonomy, then what----
    Mr. Kirksey. If I might, a lot of the assertions about 
democracy in Indonesia from the State Department earlier this 
afternoon were sort of uncritically, just sort of left there 
hanging in the air. The current situation for elections must be 
seen within this longer history. During the Suharto era, every 
couple of years, or every 4 years you would have this grand 
democracy celebration, where the President staged these 
rituals, that you know there really weren't any other 
candidates. It was just him, you know, getting selected again 
and again and again and again. There definitely has been----
    Mr. Faleomavaega. Dr. Kirksey, I don't mean to interrupt 
you, but President SBY was among one or two or three candidates 
for the presidency, so you can't say that he was the only 
candidate during the election process.
    Mr. Kirksey. Exactly. There has definitely been improvement 
since 1998 when a popular democracy movement in Indonesia 
kicked Suharto out of office. But on a local and regional 
level, there are still all sorts of shenanigans that go on 
during election time. Ballot boxes are stuffed.
    Mr. Faleomavaega. How about our own shenanigans in our own 
election process here in America?
    Mr. Kirksey. So the candidates that are elected are 
constrained by political parties that are centered in Jakarta. 
It is not as transparent and representative as it is here.
    Mr. Faleomavaega. Well, I question even our own sense of 
transparency when we had to have nine justices at the Supreme 
Court to determine who our next President is going to be. That 
is not very democratic. I mean, come on. But I am very 
concerned, as I have always said from the very beginning when I 
met with the delegations of our friends from Papua, how 
important it is that there be a sense of direction and 
sentiments and consensus coming from the Papuan people as to 
their desires and their aspirations. We talk about 
reconciliation. We talk about all these things. I think we all 
agree on that. Now, there are difficulties, as Mr. Messet had 
said. There is no denial that the human rights abuses and all 
these things continue to go on. But at the same time, I am 
wanting to know from you, give me a better proposal or a better 
plan or other options. I know we have proposed that we have a 
dialogue with the best minds, both among the Indonesians and 
the Papuans, to have a dialogue with Jakarta or the SBY 
administration.
    Now, that hasn't come about and there are some serious 
questions. And as you all know, one of the most serious 
concerns in Jakarta is that once you start talking about 
independence, then all bets are off. There is just no way that 
the Indonesian Government is going to grant independence. That 
is as best as I can assess the situation for the 15 years that 
I have been following this and we have known that Indonesia is 
very determined to see that Papua continues to be under the 
umbrella or the sovereignty of Indonesia. But I think the 
challenge for us is, with that being the reality, what are some 
of the suggestions that you might have on how we can move 
Indonesia to another phase of the ongoing process so that the 
Papuan people's rights are respected, human rights and all of 
this? I think that is where we are, where the rubber meets the 
road in terms of the difficulties that we have. And that has 
been my frustration too.
    And Mr. Messet, I want to assure you that the last thing I 
ever want to do, or even this institution, Congress, is to tell 
your people what to do. Not the least ever, ever that we would 
entertain the thought that we would want to do this to your 
people or even to the Indonesian Government. But the whole 
basis of what we are trying to pursue here, give us a line, 
give us a dialogue. Give us an area or things that you feel are 
constructive in the process. And I suppose then, with a sense 
of confidence, that President SBY will say, Okay, let's do 
something to be more helpful in making sure that the rights of 
the Papuan people are preserved or enhanced and that the 
military, TNI's presence, will be controlled, and just have a 
good mutual relationship between Jakarta and the people of 
Papua. If that is not your goal, or your sense of the future, 
then tell me what other options there are.
    Mr. Messet. Mr. Chairman, thank you. I apologize for making 
that remark, but I certainly hope that Papuans will decide the 
best for themselves within the Republic of Indonesia. And 
special autonomy should be revised and work properly to empower 
the Papuan people.
    Mr. Faleomavaega. Well, Mr. Messet, as I have said, as part 
of my frustration, it has been 9 years now since we have been 
talking about special autonomy. And my friends, or our friends 
in Indonesia and Jakarta have not produced or shown any sense 
of planning, how to go about implementing the provisions of 
special autonomy. Correct me if I am wrong, but that has been 
my observation for the past 9 years.
    Mr. Messet. I totally agree with you, chairman. Special 
autonomy is not only run by the Papuans in Papua but also from 
Jakarta. It has been decided that you hold the tail and leave 
the head goes around, but you control the tail. So if the 
special autonomy is totally given to the Papuans, I believe and 
I trust Papuan can look out for himself and they will be very 
happy to remain part of Indonesia until the end of the world.
    Mr. Faleomavaega. And I believe, in response to your 
comment, I think that is the challenge of our Papuan people and 
leaders--to show Jakarta that you do have the capacity and the 
capabilities and the wherewithal to be autonomous and not cause 
a revolution or something to that effect. I think that is 
really where we are at as far as the issue is concerned. Let me 
ask you this: Some of you may express concern about the 
Congress expressing an interest about West Papua. I believe 
there are other countries whose leaders have also expressed 
concern. I believe members of the British Parliament have also 
expressed concern on this, though not very many. Not very many. 
And I will be your friend and be frank with you. West Papua is 
not even on the radar screen as far as Washington is concerned. 
I just want to be realistic. We are not at the forefront of 
establishing or saying that this is part of our national 
conscience, national policy, in dealing with Indonesia and the 
reality of how we go about dealing with the Papuan people. But 
it doesn't mean that we ought to just stop there. But we have--
the process has to start somewhere. And it is my sincere hope 
that this hearing will be part of that process. Again, I want 
to ask the question of Mr. Jouwe. What is Mr. Jouwe's position 
on this whole matter of special autonomy?
    Mr. Messet. Mr. Jouwe is now attached to the foundation and 
he is now living in Jakarta.
    Mr. Faleomavaega. I know. But what is his outlook in the 
long term for Papua's future? You know, if I am understanding, 
he is the founder of OPM, certainly one of the elder statesmen 
and leaders of the Papuan people. And I sense he is very, very 
highly respected among the Papuan leaders and the people. And I 
just want to ask a question. What is his sense of vision for 
the Papuan people?
    Mr. Messet. His vision is that special autonomy is the only 
solution for the Papuans, chairman.
    Mr. Faleomavaega. Mr. Mote, and after that, Dr. Drooglever.
    Mr. Mote. When he arrived in Jakarta, he said that he will. 
He wanted to see if Government of Indonesia is really 
protecting Papuans rights so that they can live freely. My 
question, really back to Mr. Jouwe, if he is planning to live 
in West Papua, why now then he lives in Jayapura? There 
something is wrong. About the special autonomy, really the 
problem is, I really----
    Mr. Faleomavaega. Mr. Mote, I am not defending Mr. Jouwe, 
but I can think of several reasons. Maybe he has a health 
condition or maybe he is unable to live in Janipura simply 
because of health reasons and not because he doesn't want to 
live in West Papua. I make that assumption, but please don't 
raise questions of that nature in fairness to Mr. Jouwe and his 
reasons for staying in Jakarta rather than living in West 
Papua. I think the gentleman, certainly in my sense when I met 
with the gentleman, has a sense of respect among the Papuan 
people and their leaders. I just wanted to----
    Mr. Messet. Thank you very much, Chairman. I highly 
appreciated your concern about Mr. Jouwe. Thank you.
    Mr. Faleomavaega. Dr. Drooglever.
    Mr. Drooglever. Mr. Chairman, actually I was not wishing to 
interfere. It was just a token of concern for what was said 
here. But now I am speaking. As a historian, I am living in the 
past so I have got the right to talk about the present. But 
when you look through what has happened with the----
    Mr. Faleomavaega. Let me add this, Dr. Drooglever. I think 
it was the famous poet philosopher Santayana who said those who 
don't remember the past are condemned to repeat it. Maybe take 
off from that point.
    Mr. Drooglever. When you are looking back into the past, 
the recent past then you see that as soon as special autonomy 
was the thing of the future, then a couple of times revisions 
have been proposed. And then in all new proposals that are 
formulated, the last point, at the end of the revision, was the 
right of self determination. So I think the problem indeed for 
Papua society is that it cannot make a choice between autonomy 
and self determination. They want to have both, and I think 
that is the core of the problem.
    Mr. Faleomavaega. Comments to that, gentlemen?
    Mr. Yumame. I want to remind you that most of Papua, when 
they follow the Papuan people called us on June, they have 
decided. Papua must be given the chance to give their voice to 
give their choice. They will see that under the division 
government we have been manipulated with many policies. So the 
root of the problem, as I have said to you that many Papuans 
still think that our political status is questionable.
    So in the special autonomy without the commitment, not as 
we don't believe. What kind of special autonomy will give us? 
So the people of Papua want give us chance to choose. We want 
to stay in Indonesia. We want to make our own, or we want the 
United States for example. Let us the voice of all the people 
most of the people in Papua, maybe some of us come, represent 
the voice of some early, some bureaucratic that now they have 
benefit of their position. I want to remind you that I have 
said to you that we don't believe anymore. We don't believe. 
Suebu when he was--try to campaign for the position, he give 
promise that he will take the Papuan people to freedom.
    And he made promise like that. So all the people, all the 
Papuan people, chose him as the Governor. But when he sits as 
the Governor he forgot his freedom. He doesn't fight for that. 
He just only gives promises, promises, promises. Well, many 
Papuan people have died. Some things like, this thing the 
political system, the political party system not good to part 
in that. So as you have said to us, Why you elect Suebu? Why 
you have him in the election? Because the system not based on 
pure democratic, many begin, dominated the political party so 
they choose the Governor that can protect their interests. So 
our Papua, if I, for example, have good idea for protect Papuan 
people, but if there is no political party, choose me as the 
candidate.
    Mr. Faleomavaega. Okay. So I gather that now there seems to 
be consensus among the Papuan leaders to get rid of Governor 
Suebu.
    Mr. Yumame. Yes.
    Mr. Faleomavaega. All right. Then who do you want to be in 
his place? What options do you propose if you want to get rid 
of Governor Suebu, get rid of Governor Abraham? Where do you go 
from there? Mr. Mote.
    Mr. Mote. Mr. Congressman, I think it is not fair we get 
our Governor. I tried to explain was that he try, as a Governor 
try to defend his own people. I agree with--Mr. Messet said 
that you give some things, but you control from the Jakarta. 
That is, whoever will be Governor with that condition, no one, 
no one can really lead our people.
    The demand from West Papuans people because of the--in one 
hand you let these radical group running their dirty work in 
West Papua, on the other one, let that others, you know kind of 
try to explain that they want to do something, and in that kind 
of a condition, whoever Governor would be in West Papua would 
not be able to lead.
    So we are here, and what we are trying to say is that the 
trust through the Governor is not personal because of his 
ability. Because no one be able to control, even U.S. 
Government, on human rights issue, the powerful government here 
cannot talk with Indonesian Government. Really, the problem in 
West Papua is we have lost our dignity. We know we will being 
steal from our land. We are just 2 million people in 250 
million Indonesian population. So I think we need to, as I was 
trying to explain, one of example about the MIFEE Project, he 
reject that project, but Jakarta said no we will go ahead and 
he wasn't even invite by Governor, Indonesian Minister of 
Forestry when the project was allowed. This had just happened. 
So what they want is someone, someone West Papuans like a 
puppet who can just follow. And Congressman, I assure you, 
Suebu is a great leader.
    Mr. Faleomavaega. Let me share with you something. We 
probably have 56 elected Governors from the different States 
and territories in America. And these Governors have the same 
problems with the Federal Government, almost like Washington 
has been the biggest problem as well. So what I am saying is 
that I don't think your situation, your problem is any 
different from the problems that we are facing here as elected 
officials in Washington. A lot of times they are in conflict 
with the wishes of the people from different states who elect 
their Governors, okay?
    So I just wanted to share that bit of information about, 
when you elect your people, whatever Jakarta's opinion is about 
whom you elect, the fact is that your people elected these two 
officials, not Jakarta and not anybody. I don't think Jakarta 
put any pressure on you to elect Governor Suebu to begin with. 
So whatever deficiencies or problems that you feel that Dr. 
Suebu--that he doesn't represent your interests--we have the 
same problems with our State Governors. And there are 
complaints that some of our State Governors don't represent the 
interests of their States, especially in dealing with the 
Federal Government.
    So I just want to kind of cushion that idea is that you 
elect your Governor. They have got a lot of serious problems. 
Their leadership may be weak in various areas. And so it is 
true with all others. But the whole idea, and I want to ask you 
were these two gentlemen elected by the people? They were not 
selected by Jakarta, am I correct or wrong on this?
    Mr. Messet. That is right, Congressman.
    Mr. Faleomavaega. Mr. Messet?
    Mr. Messet. I think I said that is correct. Next year there 
will be another election, and hopefully the Papuan people will 
decide who is the next Governor for Papua and West Papua 
provinces. And this time, as you said, don't blame the leaders, 
but ask the people to answer.
    Mr. Faleomavaega. In our democracy, once the people make 
their will known through the ballot box and you are elected, 
you are very dear and close to the hearts of the people because 
the people's will has been expressed about you and you 
represent the people. Now, if they are not doing their job, we 
vote them out. It is as simple as that. And I suspect that come 
next year, when Governor Suebu and Abraham are up for 
reelection, you will then have an opportunity to say you want 
to get rid of these two leaders and choose somebody else.
    But I think when you generalize by saying that it is 
Jakarta that puts the pressure on you, when, in fact, Jakarta 
was never involved in your election process. This is what I 
really want to emphasize. You elected these two officials, not 
Jakarta. And whatever problems that you are having with them 
now, in next year's election, then it is your wish to elect 
someone else. I mean, that is what the representation and 
democracy is all about. And unless, if I understand it 
differently, how and why people are elected, you know, for us, 
come 2 months from now, all 441 Members of Congress are going 
to be up for re-election. Every 2 years the entire House of 
Representatives has to stand for re-election. So why? So that 
the will of the people will be made known in the process.
    Now, again, you have to understand all your culture, all 
your traditions. But when it comes to the point where you now 
have the privilege of electing these two officials, the highest 
ranking officials among the Papuan people, that is very, very 
serious for how Members of Congress, my colleagues and people 
here in America perceive how your democracy has evolved. The 
fact is that your people are now given the privilege of 
electing your own Governors rather than them being selected by 
Jakarta. Okay, are we in the, understand that.
    Mr. Rumbewas. Mr. Chairman, I am not sure whether you are 
familiar with the recent situation where more than 10,000 
people walking down through the Parliament to the West for a 
referendum. One of the decision, which is still part of the 
Indonesian system, which is Decision 14, the Papuans, as Mr. 
Messet mentioned, would like to have a full voice and determine 
of whether the Governor of the district full Black Melanesian 
people. There is a fear. There is a fear from the Indonesian 
Government to reject that policy. And at the moment they expect 
not a full Black Melanesians, but we also have vice where they 
are Indonesians.
    Now, as I mentioned to you, that I travel to Aceh and I see 
the Acehnese, they are Indonesian citizens like us according to 
the Indonesian Constitution, but they are free to appoint or 
elect their own native Acehnese and plus international 
community allow that to happen. Now, if as Mr. Messet 
mentioned, if Acehnese are Indonesians and we are Indonesians 
too, we have the right to support by the international 
communities to elect our own leaders like Aceh. And we have the 
discrimination. So people like Mr. Suebu and the Governor of 
Ataruli are basically people, the leaders who are making 
promises like Mr. Yumame mentioned.
    During the campaign, Mr. Suebu promised some people that 
when he stands up, he will talk about independence. But after 
he looks after his own tribe and his family, this is the whole 
issue.
    Mr. Faleomavaega. Mr. Rumbewas, a lot of times politicians 
make promises. Okay? If you want to get reelected or elected, 
you make promises. And a lot of times there is a failure on 
those promises, just like our President Obama has made a lot of 
promises, and now he is coming under severe criticism. That is 
part of the election process. Now, you mentioned that the Aceh 
people select their own Governor. Now I am given to understand 
that you have a legislative counsel in the two provinces. Who 
elects members of the legislature in your province? Are they 
selected or are they elected? Mr. Yumame.
    Mr. Yumame. The election system in the Papuan province, the 
candidate should be put by the political party.
    Mr. Faleomavaega. Okay.
    Mr. Yumame. So, as I said, now most of the political party 
led by migrant peoples. So most of our Papuan not involved in 
this political party. And by now, as you know, now migration, 
this massive migration came to Papua, so now we are a minority 
in our own place. So when the political party, and we go to the 
election system, our voice becomes the minority voice.
    So by now, if you follow the election, that really no 
Papuan become the leaders in Papua if we can protect with 
special election, like Mr. Rumbewas said enacted last year, our 
Papuan people assembly has made a decision that only Papuan can 
be candidates for the chief and his vice.
    But the Indonesian Government doesn't achieve that. So we 
try to pursue the--we try to speak our voice, but we have now 
become the minority in our place. So if you force us to follow 
the election system, democratic election system there will not 
be any Papuan will become Governor because we have become 
minority in our place. And this is the danger we will be 
replaced tomorrow our future for the next Governor election.
    Papuans people voice has become minority. So we could not 
just Papuan people as the chief, so that is the problem for us. 
You said that democracy system like this. But our situation is 
essentially the same. Papua people have become the minority 
there. So that is the problem. We believe that if we follow the 
democratic system like this, we also lose.
    Mr. Kirksey. On that point, Mr. Chairman, I would like to 
correct something that Mr. Yun said earlier. He said it is a 
60/40 relationship right now. We just had the 2010 Census 
results. The strange thing about the Census is that it doesn't 
differentiate between Papuans and migrants. It is done as in 
previous Census data, what has been done by an Australian 
scholar, Jim Elmsley, and this is a document I can put on the 
record. He has taken the historical growth rate of Papuan 
populations and extrapolated what he thinks is the current 
relationship, the current ratio of Papuans versus migrants. His 
conclusion, in a paper published last week, is that Papuans 
have already become a minority. So just to correct what Mr. Yun 
said.
    Mr. Faleomavaega. Well, what is the percentage difference?
    Mr. Kirksey. It is just under 50 percent right now, based 
on his calculations.
    Mr. Faleomavaega. But again, those are just estimates. They 
are not the real count.
    Mr. Kirksey. Right. So it is basically they are hiding this 
question. Previously, the Indonesian Government made that data 
available. So us, as scholars, we have to do the math to figure 
out, you know, basically what we think is going on. And 
Indonesia should make that data available but at this point, 
they are not.
    Mr. Faleomavaega. Any further comments?
    Mr. Messet. Chairman, I just want to make a comment about 
Yumame's remarks. Special autonomy has 76 or 79 articles. And 
one of the articles clearly said that the Governor and the vice 
governor should be a Melanesian. It doesn't mention that, 
doesn't mention anything because it is not stated in the 
special autonomies articles. It should be made a condition on 
that which the MRP hasn't done so. That is our vote, the 
Papuans vote, not the Jakarta vote. They get millions of funds 
to establish this to make that, but we are lazy. We are lazy to 
do that.
    That is why it happened. That is why I said, autonomy is a 
good start. We have to go build on that. We make dialogue to 
revise autonomy so that it can be success for the Papuan people 
to remain in the fourth largest nation in the world.
    Mr. Faleomavaega. Thank you. Mr. Mote.
    Mr. Mote. I didn't know what kind of data that Mr. Messet 
is using to manipulate these fact that--based on the time from 
the Governor and that we showed that what Mr. Messet just said 
are totally wrong. And I would like to explain to you that this 
is not because of, as himself as a, you know, lazy. I am not. 
And this is really racial, you know, I never imagine in this 
kind of a forum this gentleman say that we are lazy. It is not 
the case. Mr. Chairman----
    Mr. Faleomavaega. I don't think he was implying that you 
are lazy. He is just making a generalization that some Papuans 
are lazy. But I don't think he was directing his remarks at 
you, with all due respect.
    Mr. Mote. No, I mean because the case is this, Mr. 
Chairman, that regardless of the West Papua province saying 
that Mr. Messet just saying it is to prepare in the past. That 
is supposed to be get endorsement from the government in order 
to take that to law, put in practice, and you know to evaluate 
the implication of special autonomy.
    He stated clearly that the central government doesn't have 
a heart because they don't endorse those--the law. So, and 
then, another example, under special autonomy law, government 
form people assembly, MRP. And when they try to fight for 
Papuans rights, they calling are that law, the Jakarta 
stigmatize, Mr. Chairman, as this is separatist movement. A 
group. The leader is separatist leader. How in the world, they 
are elected leader, Mr. Chairman, according to Indonesian law, 
and they are put in a stigma as a separatist leader.
    So really, the special autonomy is nothing worse because of 
the Jakarta really doesn't want to give the special autonomy. 
Just as the background, Mr. Chairman, the special autonomy is 
agreed not because of Jakarta's intention to give Papua, but 
because of the political situation in that moment, and 
Indonesian people assembly, MRP--MPR, was decreed that we have 
to give special autonomy. And the government delays many of the 
promises of the special autonomy.
    So I will file, as the record, the objective facts about 
this special autonomy, because we are not making statement 
after statement as Mr. Messet just saying. But please, you 
know, say the objective effect that you know all of these not 
working because the Jakarta didn't pass a law that all the 
regulation can work, the Jakarta stigmatize whoever fight for 
our dignity, whoever fight for, you know, our protection as a 
separatist. That is the problem. The comparison to the 
democratic system in the United States, Mr. Chairman, you have 
a Governor where there is, you can, you know, always face the 
Federal Government. But the Federal Government will not 
stigmatize that Governor as enemy of the State.
    And he doesn't have to be scared for his life just because 
he is critical to the Indonesian Government. And the last 
example, Mr. Chairman, I was a journalist in Indonesia biggest 
newspaper for 11 years. I experience. And I can give you many 
others, Papuans where we try to fight, protect our people. They 
stigmatize us as enemy of the state. That is really the 
problem. That is a problem that is faced by any of the Papuans. 
So what Jakarta wants is someone West Papuan, slave, someone 
who just follow what Jakarta want. That is our problem, Mr. 
Chairman. Thank you.
    Mr. Faleomavaega. I want to know what interested one of our 
Senators, very noted gentleman from the State of New York, 
Senator Moynihan. In the heat of the debate, everybody was 
quoting all their facts and all these things and saying it was 
the honest truth. And he made an observation which I thought is 
very much part of this dialogue. He said, ``Sir, you may be 
entitled to your opinion, but you are not entitled to your 
facts.'' The point is that you can't make your own facts and 
try to justify that what you said is the truth.
    And again, I am not trying to lessen the importance of your 
opinions, which all of you are entitled to, and all of you have 
different opinions. The same reason that we were in a very 
interesting situation in dealing with Jakarta and the purpose 
of this is to figure out some of the challenges. What are some 
of the suggestions or recommendations that you gentlemen and 
Dr. Richardson may want to make for the Government of Indonesia 
in its treatment of the people in West Papua? So you know, I 
just want to note that. Do you have any further statements? I 
am about to put the gavel down. Dr. Kirksey.
    Mr. Kirksey. Just a real quick one on that last point. Mr. 
Yumame has suggested that a consulate in West Papua of the U.S. 
Government could help monitor human rights abuses. I think that 
is----
    Mr. Faleomavaega. There is no way that is going to happen.
    Mr. Kirksey. No way?
    Mr. Faleomavaega. You need to understand, the question of 
sovereignty is very, very key and important. No more than the 
suggestion that Indonesia wants to set up a consulate here to 
keep track of whatever problem that we have. So there has got 
to be an understanding that we deal in terms of our 
interactions with other countries. But at the same time, there 
has to be a respect for their sovereignty.
    As bad as it may seem in the opinions of others, when you 
talk about human rights, that is the traditional rule in terms 
of the relationships existing among the different countries of 
the world. And while I respect your recommendation that we have 
a consulate in West Papua, to do this, I can just say----
    Mr. Kirksey. Related to U.S. Government presence, NAMRU, 
the Naval Medical Research Unit, has been there for at least a 
decade if not, well much longer than that. My question is, what 
are they doing there? They are conducting research about 
malaria. I have had malaria 12 times. Part of this, what has 
been called by some Papuan intellectuals a silent genocide or a 
slow genocide deals with public health.
    Mr. Faleomavaega. The Americans are doing that?
    Mr. Kirksey. This is the U.S. Naval Medical Research unit. 
They have been conducting experiments for many years, but they 
have not liaised with any local health officials. Malaria is a 
disease that we know how to control. It used to be all over the 
United States and many Latin American countries. It has been 
eliminated. It is within our capacity as the U.S. Government, 
with this research unit, with this, you know, history of 
working there. We can solve this problem.
    Mr. Faleomavaega. I can't answer your question on that, Dr. 
Kirksey, as to why they are there and conducting experiments 
and the problem dealing with mosquitos and malaria, but that is 
a very serious issue in West Papua as it is in other parts of 
the world. So I am afraid I can't respond to your statement and 
questions why we are there. Mr. Rumbewas.
    Mr. Rumbewas. Mr. Chairman, I am sorry to return to you 
again and again. But one clear example is when I receive a 
letter from a conversation with my comrade here a month, and 
also we have arguments, very positive arguments with Mr. 
Messet. Let me say that regarding being lazy or not, I have 
good opportunities when my father was in prison, as I have 
testified to you today, and I got good education. Prosperity in 
Australia, like America and the Western World. But when I 
received the invitation, I returned. I come here. But I have 
returned to Papua to teach English. And that is what I wish 
that we were given the opportunity for the indigenous, start 
from the beginning of what in the history the Dutch tried to 
recruit us before we got our independence.
    Yes, political independence like Papua New Guinea. After 
getting their independence, they have problems. What I like to 
see is, and I would like to remind you, Mr. Chairman, as soon 
as I return after sitting with my other colleagues here as 
Papuan, I am not allowed to return to Papua as Mr. Messet 
mentioned. You are away from America, but the concern of my 
people, the concern of my people, but what I have experienced 
in my life, I can never return again. Since the last 2 days, 
the Indonesian intelligence have been visiting the relatives I 
live in Papua.
    And this is the freedom, and that is what I like to see 
that a full autonomy, like as I said, again and again, the 
Acehnese are Indonesians. We are Indonesians. But why can't we 
have, why can't America ask the Indonesians that there is a 
third party, so I can return like Mr. Messet and Franz Albert 
Yoca behind us, as a human beings like any Papuans and we 
decide these are the leaders we would like to choose and to 
lead ourselves like any other human being. We don't have that. 
Mr. Chairman, I cannot.
    Mr. Faleomavaega. Mr. Rumbewas, in fairness, I can't say 
why you can't go. Maybe it is a security risk.
    Mr. Rumbewas. That is correct.
    Mr. Faleomavaega. The fear of the Indonesian Government 
might be that you are going to cause riots and cause a 
revolution. I don't know. But I just want to say that your 
capacity, and why you are in asylum living in Australia is true 
with many other people from many other countries of the world 
living in asylum simply because of those concerns.
    So I can't answer your question as to why the Indonesian 
Government does not allow you to return, when Mr. Nicholas 
Jouwe or Mr. Messet are now able to return, because they were 
also very much anti-Indonesia in terms of what happened in the 
past and the abuses or whatever. But in your particular 
situation, I really can't respond to your question as to why 
you can't return in the same way that Mr. Messet and Mr. Jouwe 
were able to go back.
    Mr. Rumbewas. That is true, Mr. Chairman. Only if I can be 
Melindo, not Melanesian to look after my own people. Only if I 
can be Melindo, Melanesian Indonesian, which means I have to 
accept the reality of the Indonesian ruling us. Thank you, Mr. 
Chairman.
    Mr. Mote. If I may, I would like to add that I fully agree 
with what just Professor Drooglever was saying, that we never 
have any experience of our self-determination. I just would 
like to inform you that the special autonomy package was not 
decided by West Papuans people. We just force to accept that as 
the same as in our way and our right of self-determination was 
forced by others. So we didn't call for our right to decide 
about our, as a human being in our land. And which is 
therefore, I am support Papuan people calling for referendum, 
or you can say internationally facilitated the dialogue. 
Whatever form it will be, but the chance that as Papuan people, 
they can exercise our freedom to express what we want to be. 
Thank you, Mr. Chairman.
    Mr. Faleomavaega. Well, I can't question your sincerity 
over what you say happened in the past in terms of the rights 
of Papuan people. That is a matter of history. And Dr. 
Drooglever's book clearly points to that. I don't question 
that. The challenge here now is where do we go from here? How 
is the right of self-determination going to be given to the 
Papuan people? Another question is whether or not the 
Indonesian Government is going to grant that. The same way the 
referendum was held in East Timor under the auspices of the 
United Nations.
    I know that is the ideal situation to be given the right 
for you to determine your own future. We all want that. There 
is no question that as a matter of principle, your people were 
denied that privilege of self determination. Okay.
    So the reality is where do we go from there in terms of 
this denial that was given to you? You can take to the streets. 
You can have demonstrations. You can take up arms and conduct a 
guerilla war. These are the options. But the question is, are 
you willing to spill blood for this kind of thing? And I have 
always cautioned, as much as possible, with all due respect to 
our Papuan people, you have bows and arrows and spears and they 
have guns and bullets. That bullets travel a little faster than 
the spears. And that is reality.
    And I just want to share with you that my ultimate--really 
the last thing I would ever want to do is to spill blood of the 
Papuan people over this issue. Now, I wish we could do it. If 
there is a way it can be done peacefully through dialogue, I 
will keep pushing Jakarta to give you that privilege. But we 
are not at that juncture right now. When that is going to come 
about, your guess is as good as mine. But I sincerely hope, and 
for something that now I am sensing that you have an entirely 
different agenda now in terms of saying that you are denying 
any more discussions about special autonomy.
    But my question to you is where do we go from here? If not 
special autonomy, then what? Take it to the streets? Take up 
arms, because that basically is the price that you are, if you 
want freedom that badly, and willing to spill your guts and 
blood for it, then do it. But I say the better part of my 
common sense is that I just don't think Papuan blood is too 
precious to be spilled over a situation that has taken place 
over a 60-year period. Yes, your people have suffered. But we 
have to continue the process. And I sincerely hope that 
President SBY, in his last term for the next 3 years, and I say 
this in good faith, that he is sincere in wanting to help the 
Papuan people. How he is going to go about in doing this, well, 
this is something that I hope that the dialog will continue.
    And like I said, the whole purpose of this hearing is not 
to point fingers at anybody or to give any sense of charges 
about the evils that have been done in the past. My more 
serious concern is where we are now and what do we need to do 
for the future? And if you have got better ideas based on where 
the consensus of the Papuan people lies in this, please let us 
know. I have had some of your leaders who have come from other 
countries all claiming that they speak on behalf the Papuan 
people.
    Now, I take this with a grain of salt because personally, I 
would rather talk to the people who are in Papua, who are 
struggling, who are actually there, to know their problems and 
their struggles. So there are so many different issues and 
concerns that we need to address. And like you, Mr. Messet, I 
have always said, yes, your people have to make that 
determination. You have to make that decision, not the American 
Congress or this country.
    But ultimately, what is it that your people want 
collectively and under a unified sense of voice that this is 
what you want. And certainly, with what little I can do in my 
capacity as chairman of this subcommittee, that is all I can 
do. So this has been a very lively dialogue in the sense that 
we have certainly differences of opinion about different 
issues. But that is the very purpose of having this hearing. 
Where do we go from here? I don't know if I get reelected in 
November. I may not show up again and you may not see my ugly 
face again come November. I don't know. But I will say, again, 
in good faith and sincerity, that I think President SBY does 
have a sincere heart in wanting to help the Papuan people. How 
he goes about doing this, what things are being done, that is 
the challenge for all of us, whether it be by dialogue or some 
other forum or however that we may want to do this.
    But I really hope that we continue to have this dialogue 
and communication and hope that Jakarta will be more 
forthcoming in helping the people of Papua. So with that, if 
you have no further statements that you want to add for the 
record, I am going to use this gavel and say, the hearing is 
adjourned. Thank you.
    [Whereupon, at 6:57 p.m., the subcommittee was adjourned.]
                                     

                                     













                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
      Material submitted for the record by the Honorable Eni F.H. 
  Faleomavaega, a Representative in Congress from American Samoa, and 
 Chairman, Subcommittee on Asia, the Pacific and the Global Environment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               
                                 <all>

</pre></body></html>
